<html>
<title> - SAFEGUARDING TO THE SEVENTH GENERATION: PROTECTION AND JUSTICE FOR INDIAN CHILDREN AND THE IMPLEMENTATION OF THE NATIVE AMERICAN CHILDREN'S SAFETY ACT OF 2016</title>
<body><pre>[Senate Hearing 115-180]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 115-180
 
  SAFEGUARDING TO THE SEVENTH GENERATION: PROTECTION AND JUSTICE FOR 
                                INDIAN 
   CHILDREN AND THE IMPLEMENTATION OF THE NATIVE AMERICAN CHILDREN'S 
                           SAFETY ACT OF 2016

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         






                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-892 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     

         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on April 21, 2017.............................     1
Statement of Senator Hoeven......................................     1

                               Witnesses

Black, Michael S., Acting Assistant Secretary--Indian Affairs, 
  U.S. Department of the Interior................................     3
    Prepared statement...........................................     5
Hatch, Nikki, Regional Administrator, Administration for Children 
  and Families, Region 8, U.S. Department of Health and Human 
  Services.......................................................     6
    Prepared statement...........................................     8
Lindquist, Cynthia, Ph.D., President, Cankdeska Cikana Community 
  College, Spirit Lake Dakota Nation.............................    13
    Prepared statement...........................................    17
Pearson, Hon. Myra, Chairwoman, Spirit Lake Tribe................    10

                                Appendix

Heitkamp, Hon. Heidi, U.S. Senator from North Dakota, prepared 
  statement......................................................    35
National Indian Child Welfare Association, National Congress of 
  American Indians, National Indian Education Association, and 
  National Indian Health Board (founding partners of the First 
  Kids 1st Initiative), prepared statement.......................    36
Response to written questions submitted by Hon. Steve Daines to:
    Michael S. Black.............................................    40
    Nikki Hatch..................................................    41


                      SAFEGUARDING TO THE SEVENTH 
    GENERATION: PROTECTION AND JUSTICE FOR INDIAN CHILDREN AND THE 
                     IMPLEMENTATION OF THE NATIVE 
                 AMERICAN CHILDREN'S SAFETY ACT OF 2016

                              ----------                              


                         FRIDAY, APRIL 21, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                   Fort Totten, ND.
    The Committee met, pursuant to notice, at 1 p.m in the 
Cankdeska Cikana Community College Auditorium, Hon. John 
Hoeven, Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Good afternoon. Now, we'll call this 
hearing to order. And I want to thank Mr. Greg Holy Bull for 
the prayer and to the singers for the Drum Song.
    And, of course, to the Honor Guard, both for the Flag 
Ceremony but even more for their service to our county. We 
appreciate them so much.
    And I will remark right at the outset that, on a per capita 
basis, our Native American population, I believe, has a higher 
percentage of service in our military than any other group.
    So that is really a remarkable and wonderful service to our 
country. So thank you so much to our veterans.
    And also, I want to thank both President McDonald and 
Cynthia for hosting us here at this beautiful tribal college. 
And I appreciate so much your wonderful hospitality.
    And President McDonald from the president of United Tribes 
Technical College, but Cynthia is from the school here. Thank 
you so much for hosting us. We appreciate it very much.
    And also, I see that we have our Indian Affairs 
Commissioner here from Bismarck, Mr. Scott Davis.
    And I'm not sure who appointed you originally, Scott. But 
whoever it was, if you see them, commend them for me, because I 
think you do a great job because you've served so well and 
continue to serve so well. And thank you for being here.
    With that, I call this hearing to order. Today, the 
Committee will hold an oversight hearing on ``Safeguarding to 
the Seventh Generation: Protection and Justice for Indian 
Children and Implementation of the Native American Children's 
Safety Act of 2016.''
    And I want to welcome everyone to this important hearing. 
And again, our thanks to Mr. Holy Bull and to the performers in 
the Honor Guard.
    This is the first field hearing of the Senate Committee on 
Indian Affairs since I took over as chairman.
    It's timely in coming to the Spirit Lake Indian 
Reservation. I understand that 2017 marks the 150th Anniversary 
of the Treaty of 1867.
    This treaty was between the Federal Government and the 
Sisseton, Wahpeton, and Cut Head Bands of Yanktonais 
established the Spirit Lake Indian Reservation.
    This treaty and anniversary reminds us of the long-standing 
relationship between the United States and the Spirit Lake 
Nation.
    And today, we have an opportunity to forge a path forward 
to bring about a brighter future for our young people.
    Native youth are two and a half times more likely to 
experience incidents involving child abuse or neglect than 
children of any other race or ethnicity. This figure is 
alarming and unacceptable.
    It is also deeply troubling that placement in foster care 
of the child could also lead to that child's further 
involvement into the juvenile and criminal justice systems 
later in life. We need to break that cycle.
    On June 14, the Administration for Children and Families 
published a report providing a framework of recommendations for 
improving the Spirit Lake Social Services programs.
    I look forward to hearing a status update on those 
recommendations and how they've helped the children at the 
Spirit Lake Reservation.
    We need to start turning the cycle of foster care to 
juvenile delinquency to prison around.
    This is something that we see across the United States, and 
it's a current concern both on-reservation and off the 
reservation.
    The title of the hearing is based on Tribal wisdom that we 
consider the effects of our decisions upon the protection, 
safety, and well-being of the children seven generations from 
now.
    With this in mind, the Committee will examine how the 
Native American Children's Safety Act of 2016 is being 
implemented; what else could be done to improve the lives of 
children in this and other Native communities; and how other 
Indian communities can benefit from these efforts.
    I introduced the Native American Children's Safety Act of 
2016 last Congress as a step towards safer environments for 
Indian children.
    It was signed into law on June 3, 2016. Among other things, 
this legislation expanded background check requirements for all 
adults residing in a prospective foster care home or facility. 
And of course, this applies across the entire country and all 
reservations.
    The legislation also calls for the Department of the 
Interior to consult with Tribes and issue guidance regarding 
procedures for criminal records checks. These requirements are 
intended to lead to safer foster care homes for our children.
    Tribal leaders and members over the years have consistently 
stressed their desire to help Native youth and make sure that 
they have every opportunity to succeed and remain in-touch with 
their tribal communities, traditions, and customs.
    Safe and secure foster placement on the reservation is an 
important step in accomplishing that.
    More active Tribal involvement in juvenile justice systems 
is also an important step.
    My Indian Affairs staff is working with Senator Grassley 
and Representative Fox from North Carolina who chairs the 
Education and Workforce Committee on behalf of the House of 
Representatives on improving juvenile justice provisions in the 
Reauthorization of the Juvenile Justice and Delinquency 
Prevention Act.
    These improvements and the fundamental requirements of the 
Native American Children's Safety Act of 2016, when implemented 
as intended, will enable this Act to accomplish more than just 
safe foster care homes.
    I realize it's been a long journey towards finding 
solutions to build better lives for our children.
    I want to thank the Council and staff from Tribal Social 
Services and Tribal Court, Tribal Victims Assistance Program, 
the BIA, and others who have worked to place Native youth on 
the Spirit Lake Reservation in a position to succeed.
    There is still much work to be done, and I look forward to 
the testimony of our witnesses today. And so, we will hear from 
them.
    We have with us Mr. Mike Black, who is the acting secretary 
for Indian Affairs--Bureau of Indian Affairs, U.S. Department 
of the Interior, Washington, D.C.
    Nikki Hatch, regional administrator for the Administration 
for Children and Families, U.S. Department of Health and Human 
Services, in Washington, D.C.
    We have the Honorable Myra Pearson, Tribal Chairperson, 
Spirit Lake Nation. Thank you for being here.
    And, of course, Dr. Cynthia Lindquist, president of 
Cankdeska Cikana Community College, and our host today. Again, 
thank you for hosting. I appreciate it so much.
    And to all of you, we appreciate that you are here for your 
testimony and also to answer questions.
    I want to remind you that your full written testimony will 
be made part of the official record, and we'll begin with your 
opening statements.
    I also want to take a moment to thank my Committee staff 
for being here, as well as members of my personal staff, as 
well as Representative Cramer's staff for being here to join 
us, as well.
    Thank you for being here. We appreciate it very much--as 
well as all others here, gathered. So with that, I will turn to 
our witnesses and begin with Mr. Michael Black.

        STATEMENT OF MICHAEL S. BLACK, ACTING ASSISTANT 
       SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Black. Good afternoon, Chairman Hoeven. And again, my 
name is Michael Black. I am currently the acting assistant 
secretary for Indian Affairs in the Department of the Interior.
    Thank you for the opportunity to present testimony for the 
Department of the Interior on the ``Safeguarding to the Seventh 
Generation: Protection and Justice for Indian Children and the 
Implementation of the Native American Children's Safety Act of 
2016.''
    The safety of Native children is a priority for Indian 
Affairs and the Department. The Bureau of Indian Affairs' Human 
Services and BIA Public Safety and Justice programs support 
Native American families and communities and address the 
significant challenges faced by children throughout Indian 
Country.
    The Native American Children's Safety Act of 2016 addresses 
the need for Tribal Social Services agencies to conduct 
comprehensive background checks of residents in foster homes 
and employees of foster care institutions before placing 
children in foster care.
    It expands the Indian Child Protection and Family Violence 
Prevention Act of 1990, which required character investigations 
of federal and Tribal employees who had regular contact with or 
control over Indian children.
    The Act also requires complete criminal background records 
checks on every covered individual who resides in the household 
or who is employed at the institution in which the foster care 
placement will be made.
    Additionally, the Act requires Tribes to establish 
standards of placement that include a criminal records check, 
including fingerprint-based checks of national crime 
information databases; a check of any abuse registries 
maintained by the Tribe; and a check of any child abuse and 
neglect registry maintained by the state in which the covered 
individual resides or previously resided in the previous five 
years.
    The Act also requires that the Department consult with 
Tribes and issue guidance regarding these procedures.
    In preparation for developing this guidance, the BIA is 
currently in the process of identifying best practices of 
social service agencies in Indian Country, with a view toward 
how they can be adapted for use by social services agencies.
    As an example, at the Fort Totten Agency serving the Spirit 
Lake Tribe, the BIA conducts background checks on all relative 
placements either prior to placement or in conjunction with 
emergency placements.
    There are three levels of checks conducted by BIA to ensure 
the safety of Indian children, and we believe it is a best 
practice model that can be replicated nationwide.
    The first check is a tribal name-based check, which is 
completed immediately in the case of an emergency placement.
    The Fort Totten Agency then calls the BIA Office of Justice 
Services to request a name-based background check on all 
individuals residing in a home prior to the emergency placement 
of a child.
    Within 24 hours prior to granting care and control of a 
child, the Agency conducts a background check of state criminal 
records through a search of the State of North Dakota website.
    Finally, all relative placements undergo a full federal 
background check in which the Fort Totten Agency takes the 
individuals' fingerprints and sends them to a third-party 
vendor under contract with BIA that carries out that review.
    The Agency typically receives the results of the background 
checks back within a week.
    The BIA is also examining processes that will provide the 
Tribes the ability to check child abuse and neglect registries 
maintained by the state.
    Such processes will require cooperation of state 
governments, and we look forward to continuing developing these 
relationships.
    As mentioned above, the BIA is required to consult on the 
required guidance, and we expect to begin those consultations 
in the fall of 2017.
    Thank you again for the opportunity to testify on this very 
important issue: The Protection and Justice for Indian Children 
and the Implementation of the Native American Children's Safety 
Act of 2016.
    The Department is committed to doing its part to ensure the 
safety and protection of children throughout Indian Country. I 
will be glad to answer any questions the Committee may have. 
Thank you very much.
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Acting Assistant Secretary--
            Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, my name is Michael Black and I am the Acting 
Assistant Secretary for Indian Affairs at the Department of the 
Interior. Thank you for the opportunity to present testimony for the 
Department of the Interior (Department) on, ``Safeguarding to the 
Seventh Generation: Protection and Justice for Indian Children and the 
Implementation of the Native American Children's Safety Act of 2016.''
    The safety of Native children is a Departmental priority. The 
Bureau of Indian Affairs' (BIA) Human Services and BIA Public Safety 
and Justice programs support Native American families and communities 
and address the significant challenges faced by children throughout 
Indian Country.
    The Native American Children's Safety Act of 2016 (NACSA) addresses 
the need for tribal social services agencies to conduct comprehensive 
background checks of residents in foster homes and employees of foster 
care institutions before placing children in foster care. In this way, 
the Act expands the Indian Child Protection and Family Violence 
Prevention Act of 1990, which required character investigations of 
federal and tribal employees who had regular contact with or control 
over Indian children.
    The NACSA requires that, prior to finalizing a foster care 
placement, the tribal social services agency must complete a criminal 
records check on every covered individual who resides in the household 
or is employed at the institution in which the foster care placement 
will be made. Additionally, the Act requires Tribes to establish 
standards of placement that include: a criminal records check, 
including fingerprint-based checks of national crime information 
databases; a check of any abuse registries maintained by the Tribe; and 
a check of any child abuse and neglect registry maintained by the State 
in which the covered individual resides or previously resided in the 
preceding five years. The NACSA also requires that the Department 
consult with Tribes and issue guidance regarding these procedures.
    In preparation for developing this guidance, the BIA is currently 
in the process of identifying best practices of social service agencies 
in Indian Country, with a view toward how they can be adapted for use 
by tribal social services agencies. As an example, at the Fort Totten 
Agency serving the Spirit Lake Tribe, the BIA conducts background 
checks on all relative placements either prior to placement or in 
conjunction with emergency placements. There are three levels of checks 
conducted by BIA to ensure the safety of Indian children and we believe 
it is a best practices model that can be replicated nationwide.
    The first check is a tribal name based check, which is completed 
immediately in the case of an emergency placement. The Fort Totten 
Agency then calls the BIA-Office of Justice Services to request a name-
based background check on all individuals residing in a home prior to 
the emergency placement of a child. Within 24 hours prior to granting 
care and control of a child, the Agency conducts a background check of 
state criminal records through a search of the State of North Dakota 
website. Finally, all relative placements undergo a full federal 
background check in which the Fort Totten Agency takes the individuals' 
fingerprints and sends them to a third party vendor under contract with 
the BIA that carries out that review. The Agency typically receives the 
results of the background check within a week.
    The BIA is also examining processes that will provide Tribes the 
ability to check child abuse and neglect registries maintained by 
States. Such processes will require the cooperation of State 
governments, and we look forward to continue developing those 
relationships. As mentioned above, the BIA is required to consult on 
the required guidance and we expect to begin consultations in the fall 
of 2017.
Conclusion
    Thank you for the opportunity to testify on the issue, ``Protection 
and Justice for Indian Children and the Implementation of the Native 
American Children's Safety Act of 2016.'' The Department is committed 
to doing its part to ensure the safety and protection of children 
throughout Indian Country. I would be glad to answer any questions the 
Committee may have.

    Senator Hoeven. Thank you, Secretary. I appreciate it. And 
now, Ms. Nikki Hatch.

       STATEMENT OF NIKKI HATCH, REGIONAL ADMINISTRATOR, 
   ADMINISTRATION FOR CHILDREN AND FAMILIES, REGION 8, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Hatch. Thank you, Chairman Hoeven. It's my honor to 
appear before this Committee on behalf of the Department of 
Health and Human Services.
    My name is Nikki Hatch. I'm a regional administrator for 
the Administration for Children and Families in Region 8.
    As regional administrator, I partner with State, local, 
community-based organizations, and Tribes within the region to 
promote economic and social well-being of children, families, 
individuals, and communities.
    My testimony today will focus on ACF programs that support 
Indian child welfare, our support of the child welfare 
community at the Spirit Lake Reservation, and our work related 
to the Native American Children's Safety Act of 2016.
    Within ACF, the Children's Bureau oversees funding related 
to child abuse and neglect prevention and intervention, which 
include addressing trauma; family preservation; foster care; 
adoption; and guardianship.
    Today, many Tribes operate some form of Child Protection 
Services, and many have tribal codes; court systems; and child 
welfare programs.
    Historically, Tribes have accessed much of their child 
welfare funding through the States or through the BIA.
    However, the Children's Bureau also offers direct funding 
opportunities for Tribes through several grant programs which 
were made available to Tribes through the Fostering Connections 
Act of 2008.
    For example, the Fostering Connections Act authorized one-
time grants of up to $300,000 to Tribes to assist in the 
development of a tribally operated title IV-E plan. Over the 
past seven years, 35 Tribes or consortia of Tribes have 
received such grants.
    Under the Stephanie Tubbs Jones Child Welfare Services 
Program, funds are also available to Tribes to improve their 
child welfare services with the goal of keeping families 
together.
    In fiscal year 2016, 186 Tribes received approximately $6.4 
million in program funds. Funds are also available for certain 
eligible Tribes under the Promoting Safe and Stable Families 
Program to assist with family support, family preservation 
services, time-limited family reunification services, and 
services to support adoptions.
    In fiscal year 2016, 130 Tribes received approximately 
$10.3 million in those program funds.
    The Spirit Lake Tribe is a recipient of some of the program 
funds I've mentioned. The Tribe is a title IV-B grantee and 
receives title IV-E dollars through an agreement with the State 
of North Dakota.
    In addition to funding, Spirit Lake has access to the ACF 
Capacity-Building Center for Tribes.
    This Center delivers services to Tribal communities through 
coaching, peer networking, distance learning, consultation, 
dissemination, product development, and capacity-building 
assistance.
    Over the years, we've worked directly with child welfare 
stakeholders at the Spirit Lake Reservation to provide a 
foundation and framework to support practice improvement 
efforts within Spirit Lake's child welfare program.
    For example, in response to a number of concerns shared 
with us by the community, including concerns that children 
reported for abuse and neglect were placed and remained in 
unsafe conditions, ACF representatives held on-site listening 
sessions at the Spirit Lake Reservation in 2014.
    The sessions included interviews with a range of Spirit 
Lake child welfare stakeholders. Based on those sessions, we 
developed seven priority recommendations to be addressed by 
child welfare stakeholders at the Spirit Lake Reservation.
    Included was a recommendation for the Spirit Lake Tribal 
Social Services Agency and BIA to jointly develop policies and 
procedures that encompass all aspects of child welfare 
services, including that foster homes must comply with federal 
and state safety checks, including background checks on all 
adults residing in the home.
    In 2016, the Native American Children's Safety Act 
addressed background check requirements for foster homes.
    As you know, the law set new standards and requirements for 
Tribes operating programs under the Department of the Interior 
to implement background checks for Tribal foster family homes 
to ensure the safety of children.
    In addition to the Act's requirement, Tribes that receive 
funding through title IV-E and title IV-B for child welfare 
programs are required to license foster family homes and child 
care institutions and conduct criminal and child abuse 
background checks.
    As the licensing and background check requirements for 
foster care placements may be different under both laws, we're 
working with Tribes to ensure that HHS program requirements are 
clear.
    We also continue to support the Department of the 
Interior's efforts to implement the licensing and background 
check requirements of the Native American Children's Safety 
Act.
    Thank you for your commitment to the safety and well-being 
of Indian children. I look forward to working with you on 
continuing to find ways to improve services provided in tribal 
communities and to ensure the safety of Native American 
children, and I'd be happy to answer any questions.
    [The prepared statement of Ms. Hatch follows:]

      Prepared Statement of Nikki Hatch, Regional Administrator, 
Administration for Children and Families, Region 8, U.S. Department of 
                       Health and Human Services
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
it is my honor to appear before this Committee on behalf of the 
Department of Health and Human Services (HHS). I am Nikki Hatch, 
Regional Administrator for the Administration for Children and Families 
(ACF), Region 8, which serves Colorado, Montana, North Dakota, South 
Dakota, Utah, and Wyoming. As Regional Administrator, I partner with 
state, local, community-based organizations, and tribes within the 
region to promote economic and social well-being of children, families, 
individuals, and communities.
    ACF is a committed partner with agencies across the federal family, 
including with the Department of Interior's Bureau of Indian Affairs 
(BIA), and with tribes. We work with partners to protect the best 
interests of Indian youth and children, and promote the stability and 
security of Indian tribes and families.
    My testimony today will focus on ACF programs that support Indian 
child welfare, our support of the child welfare community at the Spirit 
Lake Reservation, and our work related to the Native American 
Children's Safety Act of 2016.
Children's Bureau Grants to Tribes
    Within ACF, the Children's Bureau oversees funding related to child 
abuse and neglect prevention and intervention which include addressing 
trauma, family preservation, foster care, adoption, and guardianship.
    Today, many tribes operate some form of child protection services 
and many have tribal codes, court systems, and child welfare programs. 
Historically, tribes have accessed much of their child welfare funding 
through the states, or through the BIA. However, the Children's Bureau 
also offers direct funding opportunities for tribes through several 
grant programs.
    The Fostering Connections to Success and Increasing Adoptions Act 
of 2008 amended title IV-E of the Social Security Act, and provided 
federally-recognized Indian tribes, tribal organizations or consortia 
of Indian tribes with the option to apply to operate a title IV-E 
program and seek federal reimbursement for a share of allowable 
expenditures made pursuant to an approved title IV-E plan for foster 
care, guardianship assistance, and adoption assistance for children 
with special needs. Since passage of the law, nine tribes have been 
approved to operate a title IV-E program. These are:

  <bullet>  Port Gamble S'Klallam Tribe of Kingston, Washington;
  <bullet>  Confederated Salish and Kootenai Tribes of Pablo, Montana;
  <bullet>  South Puget Intertribal Planning Agency of Shelton, 
        Washington;
  <bullet>  Keweenaw Bay Indian Community, Baraga, Michigan;
  <bullet>  Navajo Nation, Window Rock, Arizona;
  <bullet>  Chickasaw Nation, Ada, Oklahoma;
  <bullet>  Eastern Band of Cherokee Indians, Cherokee, North Carolina;
  <bullet>  Pascua Yaqui Tribe, Tucson, Arizona; and
  <bullet>  Tolowa Dee-ni' Nation (formerly Smith River Rancheria) in 
        California.

    Seven of the tribes are moving forward with implementation of their 
title IV-E programs, while two have chosen not to move forward at this 
time.
    The Fostering Connections Act also authorized one-time grants of up 
to $300,000 to tribes, to assist in the development of a tribally 
operated title IV-E plan. Grant funds may be used for the cost of 
developing a title IV-E plan, including costs for the development of 
data collection systems, a cost allocation methodology, agency and 
tribal court procedures necessary to meet the case review system 
requirements, or any other costs attributable to meeting any other 
requirement necessary for approval of a title IV-E plan. Over the past 
seven years, 35 tribes or consortia of tribes have received title IV-E 
plan development grants.
    The Fostering Connections Act also provided both tribes that 
operate a title IV-E program and tribes that have a title IV-E 
cooperative agreement or contract with the state title IV-E agency, the 
option to apply to receive funds directly from HHS to operate a John H. 
Chafee Foster Care Independence (CFCIP) and/or Educational Training 
Voucher Program (ETV). The CFCIP and ETV programs provide funds to help 
older youth in foster care and youth formerly in foster care acquire 
training and independent living skills and attend postsecondary 
education so they can become self-sufficient. In fiscal year (FY) 2016, 
four tribes received approximately $100,000 in funds through the CFCIP 
and ETV programs.
    Additional funds, under the Stephanie Tubbs Jones Child Welfare 
Services Program (Subpart 1 of title IV-B of the Social Security Act), 
are available to tribes to improve their child welfare services with 
the goal of keeping families together. Tribes provide services in 
support of five purposes which are: protecting and promoting the 
welfare of all children; preventing the neglect, abuse, or exploitation 
of children; supporting at-risk families through services which allow 
children, where appropriate, to remain safely with their families or 
return to their families in a timely manner; promoting the safety, 
permanence, and well-being of children in foster care and adoptive 
families; and finally, providing training, professional development and 
support to ensure a well-qualified child welfare workforce. In FY 2016, 
186 tribes received approximately $6.4 million in funds through the 
program.
    Funds are also available for certain eligible tribes under the 
Promoting Safe and Stable Families Program (Subpart 2 of title IV-B of 
the Social Security Act) to assist with family support, family 
preservation services, time-limited family reunification services, and 
services to support adoptions. In FY 2016, 130 tribes received 
approximately $10.3 million in funds under title IV-B, subpart 2.
    In 2011, the Child and Family Services Improvement and Innovation 
Act allocated $1 million for the creation of new Tribal Court 
Improvement Program (CIP) grants. The purpose of the grants is to 
design and implement projects and/or activities to assess, expand, or 
enhance the effectiveness of tribal courts and/or legal representation 
in cases related to child welfare, family preservation, family 
reunification, guardianship, and adoption. Tribes and tribal consortia 
are eligible to compete for this grant if they: (1) operate a title IV-
E program; or (2) plan to operate a title IV-E program and have 
received a title IV-E plan development grant; or (3) have a court 
responsible for proceedings related to foster care or adoption. There 
have been two rounds of grants under this program, with seven awards in 
the first round, and nine awards in the second. The second three-year 
grant began in FY 2015, with each grantee receiving up to $150,000 for 
each of three years. Current grantees include:

  <bullet>  Confederated Salish and Kootenai Tribes;
  <bullet>  Muckleshoot Indian Tribe;
  <bullet>  Ponca Tribe of Nebraska;
  <bullet>  Citizen Potawatomi Nation;
  <bullet>  Mashpee Wampanoag;
  <bullet>  Taos Pueblo;
  <bullet>  Sitka Tribe of Alaska;
  <bullet>  Saint Regis Mohawk Tribe; and,
  <bullet>  Tolowa Dee-ni' Nation (formerly Smith River Rancheria).

ACF and the Spirit Lake Child Welfare Community
    The Spirit Lake Tribe is a title IV-B grantee and receives title 
IV-E dollars through an agreement with the State of North Dakota. As a 
title IV-B grantee, Spirit Lake has access to the ACF Capacity Building 
Collaborative, which is composed of three highly integrated centers to 
serve tribes, states territories, and courts. The Capacity Building 
Center for Tribes delivers services to tribal communities through 
coaching, peer networking, distance learning, consultation, 
dissemination, product development, and capacity-building assistance.
    We have worked directly with child welfare stakeholders at the 
Spirit Lake Reservation to provide a foundation and framework to 
support practice improvement efforts within Spirit Lake's child welfare 
program. For example, in response to a number of concerns shared with 
us by the community, including concerns that children reported for 
abuse and neglect were placed and remained in unsafe conditions, ACF 
representatives held on-site listening sessions at the Spirit Lake 
Reservation in 2014. The sessions included interviews with a range of 
stakeholders from the Spirit Lake Tribal child welfare system, 
including current and former social workers, current and former 
juvenile judges, BIA staff, school district staff, North Dakota and 
county human services staff, and BIA law enforcement.
    Based on those listening sessions, we developed seven priority 
recommendations to be addressed by child welfare stakeholders at the 
Spirit Lake Reservation. Included was a recommendation for the Spirit 
Lake Tribal Social Services Agency and BIA to jointly develop policies 
and procedures that encompass all aspects of child welfare services 
including that foster homes must comply with federal and state safety 
checks, including background checks on all adults residing in the home.
The Native American Children's Safety Act of 2016
    The Native American Children's Safety Act of 2016 set new standards 
and requirements for tribes operating programs under the Department of 
Interior to implement background checks for tribal foster family homes 
to ensure the safety of children. In addition, tribes that receive 
funding through titles IV-E and IV-B for child welfare programs are 
required to license foster family homes and child care institutions and 
conduct criminal and child abuse background checks. As the licensing 
and background check requirements for foster care placements are 
slightly different under both laws, we are working with tribes to 
ensure the title IV-E requirements are clear. We also continue to 
support the Department of Interior in its efforts to implement the 
licensing and background check requirements of the Native American 
Children's Safety Act.
    Thank you for your commitment to the safety and well-being of 
Indian children. I look forward to working with you on continuing to 
find ways to improve services provided in tribal communities and to 
ensure the safety of Native American children. I would be happy to 
answer any questions.

    Senator Hoeven. Thank you, Administrator. And now, 
Chairwoman Myra Pearson.

 STATEMENT OF HON. MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE TRIBE

    Ms. Pearson. Thank you, Chairman Hoeven, for this 
opportunity. And I also appreciate the fact that my comments 
will be a part of the record today. I thank you for that.
    The Spirit Lake Tribe has struggled to develop a 
sustainable, systematic infrastructure to address child 
deprivation within the Spirit Lake Tribe jurisdiction.
    The obstacles and challenges that the Tribe has faced Stem, 
in part, from the Bureau of Indian Affairs'--hereinafter, the 
BIA--regulations that hinder information-sharing and Tribal 
justice system responses; burdensome foster care licensing 
standards and requirements that limit the availability of 
licensed foster care homes on the Spirit Lake Reservation; and 
a lack of necessary resources to build a justice system 
response to child deprivation that is effective, sustainable, 
and culturally appropriate.
    Presently, the Spirit Lake Tribe is working diligently to 
reassume control of Child Protective Services through the 638 
contracting process.
    As a part of that effort, the Spirit Lake Tribe is updating 
applicable policies, procedures, and laws.
    The Spirit Lake Tribe has filed our Letter of Intent with 
the United States Department of the Interior, and we are 
working to identify costs while further negotiating a base 
level of funding for our Child Protective Services division.
    The process has been frustrated by BIA's unwillingness to 
provide case-related information and to work with the Tribal 
justice system personnel.
    The communication break-downs between the BIA and the 
Spirit Lake Tribe regarding Child Protective Services have 
directly impacted the safety of our children.
    Despite the fact that the Tribe intends to reassume control 
of Child Protective Services, the BIA has made it clear that 
the funding to the Tribe will be significantly less than the 
current BIA budget.
    In other words, the BIA is seemingly content to turn the 
Child Protective Services function over to the Tribe through 
the 638 Contract process, but it is clear that we will be 
expected to provide the same or better services with less 
funding and less personnel.
    This hardly appears to be a recipe for success, and one 
that we will continue to address through the negotiation 
process.
    The Spirit Lake Tribe also works cooperatively with the 
State of North Dakota to meet the needs of children on the 
Spirit Lake Reservation through a title IV-E agreement.
    In accordance with that agreement, the Spirit Lake Tribe 
agrees to follow the applicable title IV-E law and regulations.
    And so far, as the Title IV-E Agreement law and regulations 
pertain to foster care and foster care licensing, the Title IV-
E Agreement includes in relevant part.
    Title IV-E-reimbursed maintenance payments may only be made 
to licensed or approved foster care home facilities, and the 
Spirit Lake Tribe is responsible to license such homes or 
facilities on the Reservation, subject to departmental 
recognition of the licensure by the Tribe of any foster home or 
facility on or near the Reservation, in accordance with the 
adoption of the Safe Families Act and implementing regulations.
    The regulations may be found in 45 CFR 11355.20, Part A. 
The process for the foster home licensure for the Spirit Lake 
Tribe begins through a receipt of a referral form or direct 
application by a home wanting to be licensed.
    Upon receipt of these forms, the process of becoming an 
adoptive or foster parent begins. The process of licensure is 
oftentimes time-consuming.
    The licensure process can take anywhere from a few months 
to a year to complete. This timeframe includes the submission 
of an application, completion of a home study, training, and 
completion of necessary criminal background checks.
    To ensure that there are systematic checks and balances in 
place for the foster care licensing process on the Spirit Lake 
Reservation, the Spirit Lake Tribal Welfare Committee conducts 
final screenings and recommendations based upon an established 
checklist.
    Despite the existence of the checklist, we are finding that 
many applications for foster care licensure are incomplete, as 
they are void of such essential information as criminal 
background checks.
    In order for a home to be licensed for foster care on the 
Spirit Lake Reservation, an applicant must meet minimum 
requirements; submit all required forms and information; 
complete the required criminal background checks; and submit 
fingerprints for all household members that are 18 years of age 
and over.
    Despite the obstacles we have encountered regarding Child 
Protective Services, the Spirit Lake Tribe continues to develop 
our Tribal Social Services program.
    In recent years, the Tribe has participated in the Tiwahe 
Initiative; developed guiding principles for the program; 
increased web-based information and resources; and provided 
community-wide education and culturally relevant training.
    The Spirit Lake Tribal Social Services Program also 
provides foster home recruitment, licensing, and support 
services.
    These efforts include locating families interested in 
providing foster care, conducting home studies, and assisting 
with the coordination of training.
    Our over-arching goal is to continue to improve the overall 
Tribal justice system responses to child deprivation cases on 
the Spirit Lake Reservation.
    This begins by increasing local autonomy to design a 
systematic response that is viable; sustainable; and, more 
importantly, that meets the needs of the children and families 
being served.
    In order to realize our goal, it is imperative that we have 
necessary resources. The number one obstacle or challenge that 
we face as a Tribe in developing sustainable and effective 
responses to child deprivation matters on the Spirit Lake 
Reservation is a lack of essential resources.
    The lack of sufficient funding to support Child Protective 
Services resulted in the Tribe turning that function back to 
the BIA a few years ago.
    However, since that time, a systematic assessment has been 
brought to light of even greater resource deficiencies.
    The resource deficiencies go far beyond Child Protective 
Services and reach into our child welfare system, court system, 
and post-adjudication services.
    Among the resource deficiencies that we have identified 
include personnel shortages within Child Protective Services; 
personnel shortages within child welfare case management; 
insufficient funding to support ongoing training needs for the 
Tribal Social Services personnel and Tribal justice system 
personnel responsible for addressing child deprivation cases; 
lack of local resources to support the development of 
culturally appropriate services for court-involved families; 
and lack of physical infrastructure to accommodate Tribal 
Social Services personnel while providing a space for the 
delivery of services to the families.
    Our program currently operates out of a decade-old mobile 
home. The lack of aforementioned resources significantly 
hinders our ability as a Tribe to maintain appropriate case 
file management ratios, develop meaningful case plans, and 
facilitate reunification efforts.
    Furthermore, our rural location; inadequate office space; 
lack of access to affordable on-reservation housing; and 
historically low funding levels have made it very difficult for 
the Spirit Lake Tribal Social Services program to attract 
competent professionals to fill position vacancies within Child 
Protective Services and Tribal social service divisions.
    I am convinced that the Spirit Lake Tribe would be better 
able to protect and safeguard our children were the resource 
deficiencies noted above remedied.
    By meeting the needs of our Spirit Lake Tribal Social 
Services program through adequate physical infrastructure, 
personnel, staff training, and culturally relevant services, we 
would not only be equipped to respond to incidents of child 
deprivation, but we would also be able to focus efforts on 
prevention, as well.
    Thank you for your consideration of these comments and for 
considering how the United States government might work with us 
in the spirit of Tribal self-determination as we work towards 
safeguarding our children and our larger community. Thank you, 
and I will be open for questions. Thank you.
    Senator Hoeven. Thank you, Chairwoman. Dr. Lindquist.

  STATEMENT OF CYNTHIA LINDQUIST, Ph.D., PRESIDENT, CANKDESKA 
      CIKANA COMMUNITY COLLEGE, SPIRIT LAKE DAKOTA NATION

    Dr. Lindquist. My name is Cynthia Lindquist: President, 
Cankdeska Cikana Community College; Tribal member, Spirit Lake 
Dakota Nation, Fort Totten, North Dakota.
    Thank you, Senator Hoeven and your staff, for the 
opportunity and the privilege of hosting the field hearing for 
the United States Senate Committee on Indian Affairs. I am 
honored to be here and to have been asked to present and to 
speak.
    Dakota people do not have a word for ``child.'' My grandmas 
and grandpas, my elders, have taught me that we call our little 
ones ``Wakanheza,'' sacred little ones.
    It's important to acknowledge the cultural component to 
calling the little ones ``sacred.''
    Your hearing today is about the implementation of an Act 
toward the protection, the safety, the well-being of Native 
children.
    I believe this Act and the actions of this Committee will 
bring forward light and information; data. More importantly, I 
am ever-hopeful that the work of this Committee will bring 
action.
    There are many issues related to child protection, child 
safety. These are interrelated, interconnected. And there is no 
one solution; it's complicated.
    And yet, for me, as a president of a college, as a grandma, 
and as our Chairwoman has eloquently stated, we need a 
significant infusion of resources.
    The issues are complex, they are layered, and they are 
interwoven. I am very hopeful that this Act, again, will shed 
light and bring action and attention and resources.
    Some aspects of this is disappointing that, in today's 
world, we have to have such an Act to protect Indian children, 
Indian babies.
    We have come this far based on history; historical trauma; 
complex policies and programs and services.
    The needs for Native people, for reservation communities, 
are complex and related to these things. They are rooted in and 
compounded by endemic poverty.
    This complexity has led and taught our people to be 
dependent. And so, the whole philosophical aspect of breaking 
dependencies is taking much work.
    And yet, we have a lot of pieces of that picture, of that 
system, in place: The industriousness, the ingenuity and 
compassion, the generosity, the resiliency of Indigenous people 
and Dakota people is prevalent. We are here today to share 
that; to share the story; to be part of it.
    In 2015, Cankdeska Cikana Community College, along with the 
Spirit Lake Dakota Nation, commissioned a comprehensive 
community assessment. I have noted this in my formal written 
testimony.
    We have a link to the College website. There are three 
documents: The full report itself is about 180 pages; there's 
an executive summary that's about 4 pages long; we also 
commissioned a cultural narrative to complement this 
comprehensive community assessment.
    In this assessment is a plethora of data from various 
sources: The Bureau of Indian Affairs, the Administration for 
Children and Families, the United States Census, the Indian 
Health Service, the Department of Public Instruction.
    There are data; there are reports and documents abounding, 
in abundancy, that everyone has access to. I just want to 
highlight a couple of data points that is in my testimony, 
again.
    The median age of our people on this reservation is 23.4, 
compared to the state's median age of 37, or the nation's 
median age of 37.2.
    Twenty-seven percent of our people, of our population on 
this Reservation, is under the age of 19.
    Fifty-seven percent of our children live in poverty on this 
Reservation. Benson County has almost double the U.S. poverty 
rate of 14 percent, and it's close to 30 percent for the Spirit 
Lake Dakota and Benson County.
    Most all the Native children in the school systems for the 
Lake Region and there are five (5) high schools that feed 
Cankdeska Cikana Community College, but 75 to 80 percent of 
those children are eligible for reduced and free meals.
    This, again, this data, these numbers play into this 
dependency lifestyle. And when we're talking about the 
protection of children, the safety of children, we have to be 
cognizant of these things.
    But again, there's data; there's reports. In this 
comprehensive community assessment--and I have copies out 
there, in addition to having access on our website--the people 
of this reservation cited the number one need: Child 
protection; child safety; the health and well-being of our 
children.
    Respondents want more services; local services; better-
quality services that are available locally.
    They want more planned activities for children and youth, 
particularly activities that will focus on the issue of 
substance abuse and address youth risk factors for drug and 
alcohol use.
    Our people want coordinated care. They would also like to 
be served by Native professionals, trained Native 
professionals, in all gamuts, in all systems that provide these 
services, be it child protection; law enforcement; social 
services; healthcare; education; the whole gamut of what is 
needed out here.
    We need a coordinated plan of action toward resource 
development that puts the agencies together to better put those 
pots of money together to reach our people at the local level 
so that these services, these resources are accessible to 
Tribal programs; Tribal leaders; the Tribal College; the Tribal 
court system; Tribal Social Services.
    Included in that resource development has to be the 
emphasis and priority of education: The training and the 
development of professionals for all of these disciplines.
    Homes: We're talking about helping families. If our 
families don't have homes, if our families are hungry, if our 
families are worried about Pampers or milk for baby, it's hard 
to talk to them about education; or a sense of health and well-
being; or child services, and being a better parent.
    Our community needs facilities, and we need rec facilities 
that are appropriate for the North Dakota weather and our 
geographic location. We need these services to be integrated 
and coordinated and available locally.
    The Tribal College, Cankdeska Cikana Community College, 
manages, for the Tribe, the Head Start program.
    Head Start is a wonderful model of services for people that 
emphasize children and the development of children.
    We took over the management of the program in January of 
2014. We serve about 140 children, infant to five years old.
    We have a prenatal component to Head Start, wherein we have 
a couple of nurses who go out to try to provide prenatal care.
    And if that mother comes in for services, they are 
guaranteed a slot in Head Start.
    The few moments of time I have to visit with staff 
individually and personally about their jobs and their role, 
the nurse who does this prenatal service as part of our Head 
Start program has told me about the challenge of finding these 
young women.
    And she was trained by my mother, fortunately, so she knows 
the Reservation well and knows how to find people.
    So when we find these young women, they're reluctant to 
come. There is some shame, there is some hesitancy, because 
they're afraid of being punished; afraid of being denigrated if 
they're using, and that. Our goal in the program is to just 
find these women, to get them into services. So many times, 
these nurses and also our other social work staff within the 
Head Start program--they're called ``FSA,'' family services 
advocates--they're sitting in the car on the Reservation, 
trying to counsel these young mothers to come into services.
    They learned to have iPads, the technology, and a printer 
so they can do the intake; try to refer them to the Tribe's 
prenatal program to get them into services, and that.
    It takes much work and time and much effort, but I cite 
this as an example. Head Start is also--along with us at the 
College, our programs, and what we do--we are a mandatory 
reporter for child abuse and neglect, or suspected cases of 
child abuse and neglect.
    It's disheartening for me to have to report officially 
that, since January of 2017--so three and a half months--our 
Head Start program has submitted sixteen 960s to the Bureau of 
Indian Affairs Child Protection Program here in Fort Totten.
    Our problem or our concern with this is that we feel, when 
we submit a 960, it goes into a big black hole because we don't 
hear back.
    We don't know if they got the 960; we don't know if it's 
going to be acted upon or investigated. And our concern is for 
the children.
    And so, then, every now and then, my staff will ask me, 
``Did you hear? Did anybody contact you, President?''
    ``No, and that's really not my job; not my role or 
function.''
    ``Do you know if the child's okay? Is that family okay?''
    At the same time, on occasion, we file a 960 with Ramsey 
County in Devils Lake, North Dakota.
    And on the few occasions that that has happened, they've 
called us back in less than an hour to tell us, ``I've received 
your 960. Yes, that's our client. We're going to investigate.''
    And then, typically, they'll ask a few more questions. So 
we know social services can work.
    We know the reality of the Bureau of Indian Affairs Child 
Protection Program, and the complications of it being either 
Tribal Social Services or the Federal Government Bureau of 
Indian Affairs Social Services, and the staff coming and going 
as temporary assignments to this Reservation.
    But I mention this and bring this up because, if we're 
really about protecting children, there is still much work to 
be done.
    The College is building a new Head Start Center. We hope to 
open in August or September this fall.
    The staff at Head Start and the community is very excited. 
This is a partnership between Cankdeska Cikana Community 
College and the Spirit Lake Dakota Nation and our Tribal 
Council.
    It's a great example of working together to address this 
issue of facilities and services for our children and families.
    I mention the building because we took out a loan which, 
it's like, Why did we have to take out a loan?
    Benson County Spirit Lake Dakota Reservation is a Strike 
Force Zone; it's a Promise Zone.
    And I'm very, very proud as a Tribal member that the 
College negotiated and facilitated taking out the loan.
    There's two loans, actually, for $7.6 million. The Spirit 
Lake Dakota Tribal Council is making the payments for that 
loan.
    And it's a true partnership. And I'm really, really proud 
of our Tribal leaders, and I wanted to acknowledge them 
publicly.
    At the same time, they know, since we've signed those loan 
papers, we've been trying to get them changed; minimized; 
hardship-decreased; or something, surely.
    Because, again, Spirit Lake Dakota Nation, Fort Totten, 
North Dakota: Can't something be done to decrease those loans? 
But we have started making the payments.
    Another component or issue relative to Head Start that is 
reflected in all of this addresses children's issues is 
education and the need for training.
    We're successful through the College in providing 
professional development, but we have much more work to do 
toward getting Tribal members with the appropriate credentials.
    And the training is for teachers in early childhood 
education, elementary education, education in general; social 
workers, clinicians, forensic social workers who can do this 
work but who have the cultural sensitivity; we need multi-
disciplinary teams.
    I want to close by citing a comment out of the United 
Nations' report from 2009, The State of the World's Indigenous 
Peoples:
    Education is the primary vehicle by which economically and 
socially marginalized people can lift themselves out of poverty 
and obtain a means to participate fully in their communities.
    I'm a little biased as the president of a Tribal community 
college. Many of us have stories about how education has helped 
us.
    And there's many types of education, especially for us as 
indigenous people. Unfortunately, it's not funded equitably; 
it's not funded adequately.
    And that's a huge component of all of this and the 
solutions toward implementing this Act. I am most hopeful, but 
there is still much work to be done.
    And hopefully, we will continue that journey together in a 
good way, not pointing fingers at anybody or any one thing.
    How do we figure this out? I am most optimistic and 
hopeful. Thank you so much for the opportunity and for 
listening.
    [The prepared statement of Dr. Lindquist follows:]

 Prepared Statement of Cynthia Lindquist, Ph.D., President, Cankdeska 
          Cikana Community College, Spirit Lake Dakota Nation
    Thank you to Senator John Hoeven and the U.S. Senate Committee on 
Indian Affairs for hosting a field hearing on the Spirit Lake Dakota 
reservation on the very important topic of child safety and protection. 
I believe this is the first time a Senate field hearing will be held on 
the Spirit Lake reservation, and I am grateful that our Senate leader 
has convened the hearing in Fort Totten, ND.
    Dakota people do not have a word for child or kids as they are 
considered ``sacred little ones''--wakanheza. Human life is sacred, a 
gift, and the sacred little ones are to be loved, cared for, and 
cherished. I am ever hopeful that the Native American Children's Safety 
Act of 2016 will shed light on, and bring action to the layered, yet 
related issues to protect our sacred little ones. There is no one 
solution except for the need for significant infusion of resources--
financial and professional--to address the safety and protection of 
Native children. While I am most hopeful for the potential benefit of 
the Act, it is also disheartening that such legislation is needed.
    The needs for the Spirit Lake Dakota reservation are significant 
and documented in a variety of ways by various federal, state, and 
private organizations. Disparities in social, health, education, and 
economic factors are reported by the U.S. Census, Bureau of Indian 
Affairs, Indian Health Service, and many others. The needs for most 
reservation communities are complex, related to history and historical 
trauma, and compounded by endemic poverty. This complexity has forced 
Native people to live a dependency lifestyle that is alien to Dakota 
life ways of industriousness, ingenuity, compassion, and generosity.
    In 2015, CCCC led the coordination of a Comprehensive Community 
Assessment (CCA) in partnership with the Spirit Lake Tribe. The purpose 
of the assessment was to describe community characteristics using 
existing data and to describe current health, education, economic, 
housing status, and needs of community members through individual 
interviews. There are three documents for the CCA--the full study/
report, an executive summary, and a cultural narrative. These documents 
may be accessed on the CCCC web site at http://www.littlehoop.edu/
research.html. The following demographic summary is from the CCA:
    Spirit Lake Nation has 7,256 enrolled members with 2,069 members 
living on the reservation. Total reservation population is 4,238. The 
Department of Interior, Bureau of Indian Affairs, lists 5,002 American 
Indian/Alaska Natives (AI/AN) alone or in combination, living on or 
near the Spirit Lake Dakota reservation. Virtually the same number of 
females and males live on the reservation. The median age for all of 
Spirit Lake reservation is 23.4, younger than the State's median age of 
37 or the nation's median age of 37.2. Women have a higher median age 
(23.5) than men (23.3). The reservation community has approximately 27 
percent of the population under the age of 19. The reservation's 65 and 
older population comprises 7.1 percent of the total population, lower 
than the state (14.5 percent) and national (13 percent) percentages. 
Twenty-nine percent of Spirit Lake reservation residents are married, 
lower than the state (53.5 percent) and U.S. (50.2 percent).
    According to the 2010 U.S. Census Bureau, 72 percent of Spirit Lake 
reservation residents, age 18 and older graduated from high school, as 
compared to ND at 89 percent and the U.S. at 85 percent. Spirit Lake 
Tribal members earning a bachelor's degree or higher is 7 percent, 
compared to ND at 26 percent or the U.S. at 28 percent. Sixty-five 
percent of the Spirit Lake population between 20 and 64 years of age 
are in the labor force (labor force includes unemployed who were 
actively searching for employment); 55 percent of the labor force 
population is employed, lower than the state (85 percent) and national 
levels (78 percent). The median household income on Spirit Lake 
reservation in 2006-2010 was $26,118, much lower than the state 
($46,781) and national ($51,914) levels. Nearly half (47.8 percent) of 
the reservation's residents live below the poverty level, much higher 
than state ((12.3 percent) and national (13.8 percent) levels.
    The U.S. Census Bureau reports that 57 percent of Spirit Lake 
children live in poverty as compared to ND's rate of 14 percent. The 
local school systems all have higher rates (78 percent) of students 
(mostly Native children) who qualify for reduced and free lunches than 
the state rate (25 percent).
    The CCA provides much detail and information on the health, 
education, economic, and housing status and needs of the Spirit Lake 
community, as well as a summary on life satisfaction and the most 
important needs (priorities) for the Spirit Lake Tribe. There were 18 
items rated as `very important' for the needs section of the CCA and at 
the top of the list is child safety/protection, followed by housing and 
employment, then health/behavioral health items. It is important to 
note that all 18 items were rated above a four with five = Very 
Important. Respondents noted that access to health care services, 
particularly mental health/social services/substance abuse treatment, 
along with better quality of services, are important factors 
influencing outcomes. To improve child safety/protection, respondents 
want more community, child and youth activities on the reservation that 
are planned and coordinated, especially to address youth risk factors 
for drug/alcohol use. The CCA developed a chart of recommendations, 
which is organized by needs as identified by the respondents, and 
includes other studies/reports. The recommendations provide a framework 
for addressing child safety/protection for the Spirit Lake community.
    Health and education go hand in hand. Education is the pathway to 
address the various issues affecting the protection and safety of 
children but to pursue education, there must be some semblance of 
health and well-being. Native people have been taught dependency and 
various federal policies have had a detrimental impact that contributes 
to the dependency lifestyle. Poverty and hopelessness limit aspirations 
and it is a debilitating cycle that is compounded by alcohol and drug 
abuse. Reinforcement of Dakota life values is core to the work at CCCC 
and for all tribal colleges. Revitalizing cultural knowledge and Dakota 
values that are rooted in language is the mission of CCCC. Tribal 
college research is documenting that Native college students who have a 
strong cultural identity, are having successful college outcomes.
    I strongly believe that there is an abundance of data and reports 
regarding the social, education, and economic disparities, as well as 
on child abuse, neglect, death, or suicides on American Indians that 
informs the implementation of the Native American Children's Safety Act 
of 2016. We need coordinated resource development for tribal-specific 
response, such as the Spirit Lake Comprehensive Community Assessment. 
Resources, including support, for training and education of tribal 
members to become the professionals needed for social services, 
addiction counseling, culturally based family services, lawyers, 
doctors, teachers, child care providers, and so on, must be a priority 
goal. Resources for family homes and facilities to provide the 
services, and built for North Dakota weather and geography, must be a 
priority goal. Stronger networking of federal agencies, state programs, 
tribal programs, and private organizations must be encouraged so 
services are integrated and available where the people reside.
    Families need help that is not punitive and that encourages and 
supports them in a good way, utilizing incremental steps. Head Start is 
a wonderful model that does what it can toward helping families and 
supporting the development of their children. CCCC has administered the 
Spirit Lake Head Start program since January 2014 and currently serves 
approximately 140 children, ages infant to 5 years old. CCCC Head Start 
has a prenatal component wherein, we track down the pregnant woman and 
help to get her into services. The baby is guaranteed a slot in the 
Head Start program with the mother's cooperation. As we counsel the 
pregnant women, there are a myriad of problems she is trying to address 
and generally, the mothers are very young and lack support or knowledge 
of what to do or how/who to reach out to. The CCCC Head Start prenatal 
nurse usually does this counseling in her car, as the young mother-to-
be is staying somewhere that is not ``her'' home and she is afraid of 
consequences for talking to a nurse.
    CCCC Head Start is a mandated reporter for suspected child abuse or 
neglect. Since January 2017, our program has filed sixteen, SFN 960s to 
the Bureau of Indian Affairs (BIA) Child Protection Services (CPS) in 
Fort Totten, ND that I am aware of--that is an average of one per week! 
Our issue is that the Head Start staff (usually a Family Services 
Advocate/FSA, but sometimes the nurses) do not hear back on the filed 
960, so we do not know if it has been received, that a review/
investigation will be conducted, and most importantly is the child or 
children safe and being cared for in a good way. In comparison, on 
occasion the Head Start staff file a 960 with Ramsey County and per the 
staff, ``. . .within an hour of sending in the 960, the Ramsey County 
Child Protection Services (CPS) has called to verify receipt of the 
report, ask questions, and to acknowledge that they are following up.'' 
We only want assurances that the child or children are being protected 
and in a safe environment.
    The CCCC Head Start program has made significant progress in the 
three years we have managed it, including securing funding to build a 
center that is centrally located on the reservation and desperately 
needed for the community. This is a collaboration between the Spirit 
Lake Tribe and the College, with CCCC securing two USDA Community 
Facilities loans for $7.6 million for the construction, plus $900,000 
from the Office of Head Start. The Spirit Lake Tribe is making the 
payments for the loans which started in March 2017. The new Head Start 
Center is 42,000 square feet, brick, with 19 classrooms to serve 185 
children. It will have a nurse's station, commercial kitchen, heated 
bus garage, office/reception area, and a multi-purpose room for parent/
teacher training. The center is for the children and families of Spirit 
Lake and will open in the fall 2017. We are grateful for the USDA 
loans, but it is frustrating that loans had to be utilized, as the 
Spirit Lake Dakota reservation is a designated Promise and Strike Force 
Zone (extreme poverty, high unemployment, and limited economic 
development). I have requested consideration to have the loans waived, 
decreased, or minimized due to extreme economic hardship.
    Another component for Indian Head Start programs is the need for 
credentialed teachers, social workers, nurses, and administrators who 
are tribal members. CCCC utilizes Department of Education, Title III 
grant program resources for professional development of faculty and 
staff, including Head Start employees, and we have six tribal members 
working on bachelor's degrees in Early Childhood Education (ECE) and 
another four in social work. To meet Head Start standards, we project a 
need for 25 teachers with bachelor's degrees in ECE for the new Head 
Start Center.
    The tribal colleges and universities system (TCUs), via the 
American Indian Higher Education Consortium (AIHEC), has requested the 
restoration of the funding for the TCU/Head Start Partnership program, 
that helped TCUs build capacity in early childhood education by 
providing scholarships and stipends for Indian Head Start teachers and 
teacher assistants in TCU ECE programs. AIHEC has requested $8 million 
be designated for the TCU/Head Start Partnership program, as authorized 
in PL 110-134, so TCUs can provide high-quality, culturally-appropriate 
training for teachers and staff in the Indian Head Start programs.
    Training and recruitment of individuals and families to become 
foster parents is another important priority for the Spirit Lake 
community, and an essential component toward the safety and protection 
of children. Multi-disciplinary teams led by social services, are 
necessary to nurture collaboration, wrap-around services, and to 
provide advocacy for healthy families. The training and development of 
tribal people is essential toward facilitating change and improving 
home and family life.
    The United Nations articulates that education is a fundamental 
human right:

         Education is recognized as both a human right in itself and an 
        indispensable means of realizing other human rights and 
        fundamental freedoms, the primary vehicle by which economically 
        and socially marginalized peoples can lift themselves out of 
        poverty and obtain a means to participate fully in their 
        communities. Education is increasingly recognized as one of the 
        best long-term financial investments that States can make.

         (United Nations. (2009) State of the World's Indigenous 
        Peoples. New York, NY: Author. Retrieved from http://
        www.un.org/esa/socev/unpfii/documents/SOWIP/en/SOWIP_web.pdf )

    The protection of, and justice for, Indian children in the 
implementation of the Native American Children's Safety Act of 2016 
must be rooted in educational opportunities that are funded adequately. 
Those opportunities must be available at the local/tribal level and 
culturally relevant. Education for parents/families to understand the 
dynamics of life and doing a better job toward the development and 
well-being of their children. Education for the professional 
development of tribal members to staff social services, to be the 
teachers, nurses, or doctors. This is the work of Cankdeska Cikana 
Community College and all the TCUs.
    We look forward to working together to protect and provide safe 
environments for all sacred little ones. . .wakanheza. Thank you 
(pidamaya) for the opportunity to provide testimony.
    Mitakuye oyasin. . .all my relations (we are all related.)

    Senator Hoeven. Thank you, Dr. Lindquist. Thanks, again, 
also, for--not only the work you do here, but for hosting us 
today.
    I do have questions for the panel. Before I do that, 
though, I do want to also acknowledge Judge Foughty, a State 
District Court Judge who is here.
    Thank you for your work on behalf of Native American 
children, as well. I appreciate it so much.
    Also, we have, from the ranking member staff of the 
Committee, Tom Udall of New Mexico: Several of his staff 
members were good enough to join us: Both Kim Moxley and 
Catelin Aiwohi. So I'd like to thank both of them for joining 
us, as well.
    With that, I do want to turn to Secretary Black and ask 
you: As part of the background checks required under the Native 
American Children's Safety Act, fingerprint checks are being 
conducted.
    And while they're needed to help ensure the safety of 
children in foster care placements, they still take time to 
run.
    And so, without those checks in place, there's a period of 
time where children may be at risk. So can you talk a little 
bit about how you address that.
    And also, what you're doing to make sure that that 
fingerprint check, background check, is done as expeditiously 
as possible. And of course, under the law now, it has to be 
done on any of the adults in a foster home.
    And again, it's important to point out that's not something 
that just affects Spirit Lake; that affects every Reservation 
in the country. So if you could, go through that and let me 
know how you're handling it.
    Mr. Black. Sure. Well, we recognize that there are time 
lapses in getting back full background checks done, you know, 
based on a varied number of reasons.
    But one of the ways that we've been able to address it here 
at Spirit Lake is we have provided the Social Services Program 
with portable fingerprint machines.
    So that enables them to go into the homes for emergency 
placement, relative placement, and get those fingerprint checks 
and get them back.
    Then, we FedEx them. We have hired a third-party contractor 
to conduct those activities for us, so it enables us to FedEx 
those fingerprints to them.
    And we have been getting those back in anywhere from three 
to five days, which has really helped us to speed up that 
process and limit the amount of time that a child may be in a 
home that doesn't have a complete background check.
    Senator Hoeven. What about, under the legislation, the 
Secretary of Interior is required to issue guidance, following 
Tribal consultation, on follow-up background checks.
    So obviously, these are for foster homes across the country 
where children have been placed in foster homes, and background 
checks had not been done because they weren't required to under 
the law, prior to this legislation.
    So obviously, after consultation, the Secretary of the 
Interior is required to put that into place. I think that the 
guidance is due by June 3rd of 2018.
    So how is that process coming, and what's your estimated 
timeline on getting that done?
    Mr. Black. Sure. Well, we are currently on-schedule to get 
that done by the deadline, June 2018.
    We have the guidance issued where, as I said in my 
testimony, we're planning on conducting Tribal consultations 
this coming fall.
    Then, we would be able to take the information gathered 
from those and be able to develop the guidance by the deadline.
    But in the meantime, we've currently got a team of folks 
that are working together and looking at social services 
agencies across the country, both Tribal and BIA, to look at 
best practices and look at those things that they are doing 
currently out there that may be something that we can apply 
across--you know, across Indian Country as best practices on 
how not only they're conducting their social services programs 
and Child Protection Services, but how they're doing the 
background checks.
    Similar to the activities that we're doing here at Spirit 
Lake: Is that something we can replicate across the country and 
that Tribal Social Services programs can replicate, as well?
    Senator Hoeven. Right. That's exactly, I guess, the second 
part of my question, which you anticipated:
    How are you coming in the meantime, making sure that you 
are doing checks while you're working on completing the 
guidelines.
    Mr. Black. Yes, sir.
    Senator Hoeven. Okay. I turn to Administrator Hatch. The 
Administration for Children and Families conducted an on-site 
review of the Spirit Lake Social Services Program in 2014; 
published its findings and recommendations in June of 2014.
    And these recommendations were, you know, intended to help 
improve the Tribal Social Services system.
    Now, one of the notable items in the report was ACF's offer 
for no-cost Title IV-E training to Spirit Lake Tribal Social 
Services, BIA, and members of the Tribal staff.
    So--and this touches, I think, on some of the comments that 
both the Chairwoman and President Lindquist made in terms of 
training and resources.
    And so, I'd like you to address that in terms of training; 
other assistance, both technical assistance and funding 
assistance; and then, also, what else can you do?
    How can you help get the issue of not only training but 
resources, which both Dr. Lindquist and Chairwoman Pearson 
talked about?
    What else can we do to get that training; get that 
technical assistance; and, hopefully, get some more resources?
    Ms. Hatch. Thank you very much, Mr. Chairman, for the 
question. As you stated, in 2014, the ACF provided seven 
recommendations primarily to the Tribe on areas for improving 
practices and systems across the entire child welfare system 
here on the Reservation.
    And the ACF has continued to partner with the Tribe closely 
with ongoing dialogue and technical assistance related to the 
implementation of those. More broadly, there are a handful of 
things I would like to mention.
    First is, as I've said, we have developed an ongoing 
partnership with the Tribe through regional program management 
within my regional office, being available for regular phone 
consultation and site visits on a number of questions.
    That is an ongoing engagement that's a priority to us at 
the Administration for Children and Families.
    We're also active participants in the social services 
coalition here that provides--that brings together a number of 
interested parties focused on a wide array of improvement areas 
related to social services here on the Spirit Lake Nation.
    Finally, there is within ACF what is called a Capacity 
Building Center for Tribes, the CBCT, in which, at the request 
of the Tribe, we can provide in-depth, ongoing technical 
assistance on particular issues.
    In 2015, as part of the Capacity Building Center for 
Tribes, we worked closely in the development of what are called 
Child Welfare Practice Maps.
    That practice map: essentially, takes all aspects of child 
welfare, from intake--from the time a call is received related 
to a concern about the welfare of a child--through the system.
    That mapping exercise is essential to developing clarity of 
understanding; common understanding of roles; even a common, 
vernacular or language that interested stakeholders can have 
related to child welfare practice.
    And we've done that in close partnership with the Tribe as 
well as with our partners in BIA, the Community College, Casey 
Family Programs, and so on.
    And we stand by that technical advice and the CBCT at the 
request of the Tribe for ongoing technical assistance and 
training.
    Senator Hoeven. Dr. Lindquist talked about the Head Start 
program that the College is working on with the support of the 
Tribal Council.
    Is there anything you can do to help there, in terms of 
helping them fund the Head Start and bringing resources, 
assistance, training?
    You know, can you help with a specific project like that? 
Because it's not just about keeping children safe; it's about 
helping them thrive, and getting them educated, and helping 
them succeed.
    Ms. Hatch. Thank you, Chairman. Absolutely, we can work 
closely on that project. Head Start is within the 
Administration for Children and Families, as you know.
    And I'll follow up immediately with staff in my office 
about opportunities to partner closely with----
    Senator Hoeven. So that's the kind of thing--we're going to 
have these hearings across the country on various issues.
    Today, it's on, you know, child safety. That's not only an 
issue on-reservation; that's an issue off-reservation.
    But the point I'm trying to make is: These are bigger 
issues that go across the Reservation; that go across our 
society.
    So for example, when we go out and we talk to people who 
are working at the local level to make a positive difference, 
which these people are: Which Chairwoman Pearson and Dr. 
Lindquist are.
    I mean, they're doing this every day. So when they bring up 
something like what I think sounds like just a marvelous 
project, the Head Start project, if we can actually work on 
some of the specifics that they bring up to us, I think those 
are the examples that not only would make a meaningful 
difference here and create a positive reaction, but the kind of 
things that other places could emulate.
    Because then, somewhere, someone else somewhere else on 
another reservation in this state or some other state will go, 
``Oh, look what they did with that Head Start program. And gee, 
maybe we could do something like that, too.''
    So your last comments I think are very positive, much 
appreciated, and exactly what we're looking for.
    I hope good things come out of this discussion today and 
the other discussions that we'll be having, both in D.C. and 
across the country.
    But think about it: Even just that, just that one step, how 
meaningful that could be if you help them accomplish this 
project.
    So I would really appreciate it, and we'll certainly take 
you up on your offer to follow up with both of them on that 
project.
    And I think, if you find a way to help them, that would be 
really wonderful and a great example of what we're hoping to 
accomplish with these hearings as we do them.
    With that, then I would turn to Chairwoman Pearson. And 
Administrator Hatch, kind of, led into exactly what I was 
hoping to create:
    To find some opportunities to bring some assistance and to 
do some things that could be meaningful on your end and other 
places.
    But you started your testimony and mentioned some of the 
regulations and some of the difficulties that you have in 
regard to working with BIA in terms of Child Protection 
Services, and so forth.
    So since we have Secretary Black here, what are some 
specific things you think he could do that would really help 
make a difference in that regard: That would help the Tribal 
Council in terms of taking care of kids?
    Ms. Pearson. By assuring us that, you know, our children 
are being taken care of, but also working openly with us.
    I've sat in several meetings with, you know, the BIA and 
the Tribal Social Services Departments, and it was always a 
finger-pointing session.
    So I feel that, you know, if we can openly work with each 
other and, kind of, put our issues aside and think of who we're 
there to work for.
    We're there to look and watch out and protect the children 
of our Nation. But instead of that, we argue over whose job it 
is to do these things.
    We need to work together. And I do believe that, you know, 
Mr. Black: If he can hold his staff responsible, I think that's 
going to, you know, kind of alleviate some of the issues that 
we've been going through.
    Another thing that I look at in protecting children: I like 
the fact that, you know, we're in jobs that we're mandated to 
report these things.
    I've always had to report them due to my own position 
because I'm there to protect these children, whether they vote 
or not. They're little children.
    And, you know, I sit in a position where I can speak for 
them. And I will speak up for them because they're not going to 
be able to do it.
    No one else is going to do it, so I will do it. And I will 
assure--as long as I'm here, I'm going to assure that these 
children are protected and they have, you know, what everybody 
should be looking out for.
    Another thing that I think we need to do is we need to 
start holding their parents responsible.
    We need to take some of these--you know, some of the stress 
off ourselves but put it back on those parents because we do 
have programs that will help them.
    And if we can get more resources, I think, you know, we can 
turn this thing around, you know, a whole lot more than we have 
here.
    I come in here in 2014; I haven't seen it move that far 
along. But, you know, I want to see some type of action now.
    And I appreciate the fact that you came--you know, you've 
come here, because in 2012, '13, I believe, we had a hearing 
such as this, and no one came out after that.
    I understand, you know, the case loads you carry, as well. 
But, you know, our children are just as important.
    And I've always said that, and I'm going to do what I can 
for them. I have a passion there for them, and you know, I just 
want to make sure that they're well cared for.
    I had that kind of a childhood, and I expect everyone else 
to be able to provide that same thing for their grandchildren.
    I may not have been rich, but you know, I was able to live 
in a home that I felt secure; I felt loved. I was never hungry, 
and I was not cold.
    And, you know, it might seem a little outdated and 
everything, but I think that's what we need today. We need to 
go back a little bit and pick up some pieces and move forward 
with it.
    Sure, we need resources. But, you know, we also need that 
compassion within our families; within our community.
    And I need any help I can get here at Spirit Lake, you 
know, I would really appreciate it.
    And I've worked with Mr. Black before. Ms. Hatch, you know, 
I look forward to working with you, as well. And also you, 
Senator Hoeven. Thank you.
    Senator Hoeven. Yes. You know, you've been Chairwoman I 
don't know how many terms. But I know we worked together when I 
was governor, and that was a while ago.
    Ms. Pearson. Yes.
    Senator Hoeven. So I know you care; I know what your 
commitment is. And Dr. Lindquist talked about filing the 690s 
with the BIA, you know, and expressed concern about hearing 
back.
    And then, talked about, when they're filed with Benson 
County, they hear back right away.
    And so, I would ask Secretary Black to talk about that, 
both in terms of how you can be--how can BIA respond to the 
concerns that the Chairwoman brought up, that Dr. Lindquist 
brought up, both in terms of being responsive now and also 
working with the county and state on children's social services 
because you can leverage your efforts that way, as well.
    So what can we do to make sure the BIA is more responsive? 
Is it an ombudsman? I mean, what do we do to, kind of, make 
sure that that--close that gap? Address that concern.
    Mr. Black. Well, sure. Let me just address a little bit: 
First of all, I can definitely say I can commit my staff to 
working with the Tribe.
    All the issues that the Chairwoman worked out: I don't 
think that's anything that's out of hand.
    I liked hearing the statement that, you know, we can't be 
pointing fingers, either us back at the Tribe or the Tribe back 
at us.
    It's a matter of really sitting down and seeing where we 
are and where we want to go with the program. So I think that's 
something we can definitely commit to doing.
    The 960 reports: I don't know exactly the process and why 
people aren't getting back. I do know, you know, that last year 
alone, we had over 560, I believe it was, 960s filed here at 
Fort Totten.
    We have a staff of about three to four social workers 
working all of those 960s. So we've got about--at any one time, 
probably about a 30-to-1 ratio of cases per social worker.
    So, I mean, there are some resource issues that we have to 
work out. But, at the same time, if there's a way that we can 
work to ensure that we get some kind of a response back.
    I know, when we took over the program in 2012, you know, 
there was a lot of issues with the 960s: How they were being 
processed or not being processed.
    We've gone through some efforts, some lengthy efforts, to 
make sure that we're able to address those more expeditiously 
and make sure that we are, you know, running through the intake 
process on all of those 960s.
    And then, we've also--you know, I had mentioned 
previously--or, I didn't mention here, but I had previously 
testified in different hearings about some of the other efforts 
that we had going on here, you know.
    And one of those key efforts is the--I think it's called 
the ``multi-disciplinary team,'' where it's, basically, a 
coalition of all of the service providers in this area, 
including the state; the county; the Tribe; the BIA; the 
College.
    And they had been meeting regularly--at least about once a 
month--to really sit down and identify all of the different 
issues: What resources these different parties could bring to 
the table.
    And those are the things that we need to keep going in an 
effort to really make this program what everybody wants it to 
be.
    Senator Hoeven. So what I would ask you before you leave 
is: Ask--or, get from the Chairwoman her top three priorities.
    And then, what I would like from you is a response back as 
to how you plan to address them, and who is going to be the 
pointperson to work with the Chairwoman to do that. Would that 
be all right?
    Mr. Black. I'll do that.
    Senator Hoeven. Okay.
    Mr. Black. Pointperson's sitting right behind me, so------
    Senator Hoeven. Okay, that would be good. And then, to Dr. 
Lindquist: Your college serves as the lead institution 
administering the Tribal Health Profession Opportunity Grant 
Program.
    So I want you to tell me about it: Where it's working; 
where it's not; how we help make sure that, you know, it is of 
some assistance to you and to others that are trying to use it 
across the country.
    Dr. Lindquist. So HPOG, Health Profession Opportunity Grant 
from the Department of Health and Human Services, 
Administration for Children and Families:
    Cankdeska Cikana Community College is in the second year of 
a second award for this program. And our program is called Next 
Steps.
    Senator Hoeven. Called------
    Dr. Lindquist. Next Steps.
    Senator Hoeven. Next Steps, okay.
    Dr. Lindquist. And it's actually--our director for Next 
Steps is Skip Longie, or Phillip ``Skip'' Longie, former 
chairperson of the Spirit Lake Dakota Nation, so I'm sure 
you're familiar with Skip.
    Senator Hoeven. Yes.
    Dr. Lindquist. And unfortunately, he was on travel this 
week at a regional meeting in Denver regarding the Next Steps 
program and HPOG.
    We are in our second year of funding for the second phase 
of this. It is a statewide program to provide support services 
to low-income students who are enrolled in health-related 
professions or programs of study.
    This includes from CNA, certified nurse assistant; 
certified medical assistant; LPN; RN; BSN; social work; 
nutrition; and actually, we have a paramedic student right now.
    The program is located across North Dakota, so we have 
mentor staff in Fargo; in Bismarck; in Minot; and Fort Totten.
    And we collaborate and partner with United Tribes Technical 
College; Sitting Bull College; Lake Regions State College; UND; 
NDSU; North Dakota State School of Science; Williston State 
College; Dickinson College; Bottineau; and Minot State 
University.
    So it's a collaboration among institutions led by Cankdeska 
Cikana Community College, specific to supporting students in 
those disciplines.
    We currently have 70 students in the program; 39 are Native 
students. They are on-track at different levels to graduate in 
these disciplines.
    I believe the key to success for this program is the 
mentoring. It's one-on-one mentoring.
    And so, we have mentors on-staff who are professionals, 
either nurses or nutritionist; et cetera; social worker, and 
that. But they keep in constant contact with these students to 
keep them on-track.
    The other thing that is most important about Next Steps and 
this Health Professions Opportunity Grant is that support 
services includes not just tuition and fees.
    And we don't--at the bigger institutions, we don't pay all 
of the tuition; we pay a portion of it.
    But we do pay for books; we pay for licensure; we pay for 
child care; transportation; uniforms.
    So it's, like, an all-encompassing type of a program 
specific to what these students need to be a good college 
student and to complete and succeed in these programs.
    It's a very important program; it's very successful. I 
wasn't able to get the data from our first phase of the program 
on how many people we have placed.
    But I know it's close to 100 people in North Dakota and 
across the state, beginning with quality service providers: So 
the home-based care technicians and professionals, and that.
    Senator Hoeven. So these are 100 people you've placed in--
--
    Dr. Lindquist. Across North Dakota. It's like, four summers 
ago, we trained 18 CNAs in Fargo/Moorhead.
    Most of those--I think all of them are Native people in 
Fargo/Moorhead, and they were all placed in the in-patient care 
system in the Fargo/Moorhead area as CNAs.
    Senator Hoeven. And does the funding pay for all of their 
education?
    Dr. Lindquist. Yes.
    Senator Hoeven. Part of it?
    Dr. Lindquist. It pays for the majority of it. Now, at the 
bigger institutions where there's higher tuitions, we only pay 
a portion. We limit it. But at the smaller institutions, we're 
a little bit more affordable.
    And part of not paying 100 percent of the tuition is to, 
again, make sure we promote a sense of personal responsibility 
in helping our students to understand budgeting, budget 
management, in that, ``Oh, this is really a benefit.''
    And we want them to participate in that obligation.
    Senator Hoeven. How many years have you administered the 
HPOG program?
    Dr. Lindquist. Pardon?
    Senator Hoeven. How many years have you administered the 
program?
    Dr. Lindquist. This--total, this would be our seventh year.
    Senator Hoeven. Seventh? Okay.
    Dr. Lindquist. Yes.
    Senator Hoeven. And then, has the funding been steady? 
down? up? What's the funding status?
    Dr. Lindquist. Flatline.
    Senator Hoeven. Flatline?
    Dr. Lindquist. Pretty much flatline.
    Senator Hoeven. So it's been the same?
    Dr. Lindquist. In the scope of it, the first five years was 
Native students only. And now, this second go-around--again, 
we're in the second year of the second phase of funding--it's 
opened up to low-income students across the State of North 
Dakota.
    Senator Hoeven. And is there a prescribed number of years 
for which you administer the funds, or is that ongoing until 
change?
    Dr. Lindquist. It's a five-year funded grant.
    Senator Hoeven. So five years at a time?
    Dr. Lindquist. Right.
    Senator Hoeven. And do you--off the top of your head, do 
you recall the amount that you get each year?
    Dr. Lindquist. I'm sure I'm going to be incorrect, but I 
think it's between $1.5 to $2 million, roughly----
    Senator Hoeven. Okay.
    Dr. Lindquist. --but I might be off. I can check it, but--
----
    Senator Hoeven. And is there a formula it follows?
    Dr. Lindquist. I believe there is a formula when the grant 
is announced as to if you're selected and the amount that 
you're going to receive.
    Senator Hoeven. So you're in year two of the second five?
    Dr. Lindquist. Right, right.
    Senator Hoeven. Okay.
    Dr. Lindquist. It is a great example, again, of 
collaboration between Federal Government, federal agency; a 
local Tribal community college; and then, networking, which 
we're----
    I think Native people, Native communities are really good 
at doing that because it's somewhat cultural.
    We like to get along; we like relationships. And, you know, 
in North Dakota, we know everybody. We know each other.
    And so, there's some great partnerships among the 
institutions, but also, I think, among the providers.
    So Altru System in Grand Forks, Sanford in Bismarck and 
Fargo: We have great partnerships, and we facilitate that.
    Lake Region State College, the Dakota nursing program, is a 
great partner and has helped us to open doors and to expand 
what we do.
    Senator Hoeven. You offer a degree here in social work. Are 
you able to retain many of those people that you graduated with 
a social work degree; and then, are you able to recruit people 
into the program?
    Right? Because that makes such a difference in terms of 
getting at what we're talking about, which is taking care of 
kids.
    So tell me a little bit about, you know, kind of, how many 
you're able to train with a degree in social work.
    Do they go on, then? Do they get a baccalaureate here? Do 
they go on to somewhere else?
    You know, how many are you able to recruit back or keep 
here, and are you able to attract people into the program? I 
mean, could you train more than you're training now?
    Dr. Lindquist. Mr. Chairman and Senator Hoeven, this is a 
brand-new program that we just implemented in 2015.
    This is a partnership between Cankdeska Cikana Community 
College, the University of North Dakota social work department, 
and Sitting Bull College.
    Now, my college, our college here in Fort Totten, Spirit 
Lake, is an associate degree-granting institution.
    And so, we really like these partnerships: The two-plus-
two. So we do the first two years: The gen eds, the basic 
studies. Yes, we know that they want to go to nursing or to 
social work and that, so we're just beginning.
    We have eight students, approximately, if I remember my 
numbers right--and I just looked at the numbers this morning, 
but I'm having a senior moment.
    We have eight students in the program right now at the 
junior level. So they're at UND, but they're here. They're UND 
students, and that.
    If we could have something like Next Steps for social 
work--which we do, because social work is included in Next 
Steps, we only have a couple of those 70 students on the social 
work track.
    We're projecting, when we open up our Head Start center--
and as I've worked with the Tribe for Tribal Social Services, I 
have personally estimated that this community needs 15 social 
workers.
    For our Head Start program alone, we have four family 
services advocates, FSAs, who, I think, out of the four we have 
on-staff right now, only one has a bachelor's degree, and it's 
a BSW.
    And the goal is for the all three of them--and the other 
three are, you know, slowly.
    The model is there now, and this partnership is going to be 
able to facilitate our students staying home--even though we do 
want them to get off the Reservation to have a better world 
experience, either at UND or at Sitting Bull College, in the 
social worker system someplace--Casey Family Foundation in 
Seattle or Denver, and that.
    But knowing that they can be home-based, and that those 
support services are there toward their success.
    So I'm very optimistic. So I think our first class will be 
in maybe a year, but probably two years out, where we're going 
to have four to five completing the bachelors in social work 
degree.
    Senator Hoeven. Right. So this is--I mean, this is a very 
good program. This is a very good partnership, once again.
    It seems to me that you're creating the leveraging of 
resources we need to try to get more resources on the target.
    You are talking about a program where not only you and 
Sitting Bull College are involved, but also the University of 
North Dakota, which has very strong Native American education 
programs, so that's further leverage; including state and 
federal funds; and then, tying it in with the Tribal Council 
and other support through the Head Start.
    Seems to me this is the kind of initiative where you're 
really bringing a lot of groups together to accomplish 
something.
    So again, you know, anything we can do to help support that 
Head Start effort. And that's why I'm so pleased that 
Administrator Hatch is willing to help there.
    And then, I'm going to turn back to you, Administrator. And 
this one goes to Secretary Black, as well.
    And I think this is probably a challenge everywhere, but 
how do we get more foster homes? How do we establish more safe 
homes, whether it's on the Reservation here or anywhere else?
    You know, what can we do collaboratively to get more foster 
homes available so that we're ready to go when we need that 
help?
    Ms. Hatch. Thank you very much for that question, Chairman 
Hoeven. And you're exactly right that the attraction and 
recruitment, training and support of high-quality foster 
families is an issue far beyond any particular Reservation, 
it's a nationwide issue.
    One of the areas of support that is available through our 
Capacity Building Centers is related to foster parent 
recruitment.
    And I believe that, through the Capacity Building Center 
for Tribes, at least one Tribe or Tribal consortium has made 
that an area of focus, and I'd be happy to follow up to provide 
that kind of----
    Senator Hoeven. Well, yes.
    Particularly if they've had success, it would be good to 
know what that is and then try to get that out to the other 
reservations.
    Ms. Hatch. That's exactly right. And that's one of the 
things that these Centers emphasize, is peer-sharing. So where 
there's a success; where there's a lesson learned----
    Senator Hoeven. Right.
    Ms. Hatch. --making sure that others can benefit from that 
learning. The targets with foster care recruitment are about 
increasing the number of foster families; the training, the 
quality, the suitability of them; and reducing the 
administrative burden so that, as Chairwoman Pearson mentioned, 
the uptake time can be reduced from a year down to a minimum 
amount of time so that it can be an efficient and effective 
process.
    Senator Hoeven. Chairwoman Pearson, if you would, talk a 
little bit about the Tiwahe Initiative.
    Actually, I think you were one of the first four pilot 
programs for Tiwahe, and I just wonder what your thoughts are 
in terms of the program.
    Ms. Pearson. I think it's really beneficial for the Tribe. 
In fact, today, I believe our Tiwahe staff and some of our 
employees that attended the Tiwahe Conference down in Arizona 
are traveling back.
    So unfortunately, they couldn't be here today to, you know, 
answer any questions or give us anything.
    But the Tiwahe program has been doing real good. They've 
been working with families; they've been working with children.
    There's several things that they've been doing such as, you 
know, assisting with the social service office, as well.
    They're located across from each other: You know, west of 
Fort Totten, here. They have, I believe, a staff of three.
    And you had mentioned earlier Ms. Hatch about the mapping 
project there, and that's what they've taken on themselves.
    So I'm looking to, you know, see that completed and what--
you know, how we can work to make our jobs, I guess, a little 
easier, and take on some of the job duties that it includes.
    The Tiwahe, along with the Casey Foundation, have been 
really helpful here on the Reservation.
    We've gone to a lot of meetings with them; we've gone to a 
lot of trainings with them. And, you know, I think, by working 
collaboratively like that, you know, we can--and I enjoy it 
because more people know about the children.
    I mean, everybody is aware. There's more people aware of 
what some of the children are going through.
    So that, kind of, hold us all responsible to make sure that 
that child is kept safe.
    And, you know, by doing that, I also want to mention a 
little bit about the little Welfare Committee that we put 
together.
    They also go through and assure that our foster care 
licenses are all--you know, there's a checklist that goes with 
that.
    They go through it; they make sure that everything is 
attached before any of the licenses are signed.
    Myself, along with the BIA superintendent, are the ones 
that sign the licenses out here.
    And when those aren't complete, then we don't sign. So it's 
just assuring that these children are kept safe.
    And, you know, by using all these other resources from 
everyone, Tiwahe, kind of, came in at a--you know, I wasn't too 
familiar with them.
    But now I am, and I see where they're doing a lot to 
benefit, like I said, our families and our children.
    I'd like to keep them around forever, but I don't know how 
their funding is going to last or, you know, how long it's 
going to last, or they might pull it or something. But 
nevertheless, they've helped us a lot here.
    Senator Hoeven. Okay.
    Ms. Pearson. The Casey Foundation has also been another, 
you know, big help to us out here.
    And I give that credit to Former Chairman McDonald. You 
know, he brought it in. And in fact, the day that I came in, 
the Casey Foundation people were here, too.
    So when we made our transition, that's--he was going out, 
and I was coming in, but we were all working together, you 
know, and that's what it was on: The Casey Foundation and these 
other programs that came in to help.
    And I think we all, kind of, came in at a time when things 
were a lot worse than they are today. But they're improving, 
but not fast enough, I guess.
    Senator Hoeven. Chairwoman, you've always been a 
stabilizing force, a steadying force on the Reservation, and 
it's much appreciated.
    I guess the last question I have for each of you would be: 
The BIA is getting guidance on implementation of the 
legislation to make sure that background checks are done in 
foster homes and that the foster homes are safe.
    So just any thoughts that each of you would have just as we 
wrap up, here, in terms of what you want to make sure that the 
BIA is looking at as they undertake that effort?
    So I guess I'll start with Administrator Hatch; and go to 
the Chairwoman and Dr. Lindquist; and then, just come back to 
you, Mike, for--to respond.
    Ms. Hatch. Thank you. ACF works very closely with the BIA 
and has been and will continue to work very closely to ensure 
that the rollout of the criminal background check requirement 
is done as smoothly and as easily as possible, and is aligned 
with what we already understand in child welfare practice, and 
is implemented related to the title IV-E background check 
requirements so we have ongoing conversations and will continue 
to do so to make sure that we have the best learning and 
sharing of best practices as possible.
    Senator Hoeven. Okay. Chairwoman?
    Ms. Pearson. What I'd like to get your support on is to see 
if we can license more off-reservation homes, or if we can go 
in that direction, because we definitely don't have enough here 
on the Reservation.
    And if the same rules can apply there because, as you heard 
earlier, Ramsey County would--you know, their response time 
back to us was, you know, like, in a few hours.
    So if we could apply those same rules and stuff to homes 
off the Reservation, and if we can license homes off the 
Reservation, because, like I said, we don't have enough homes 
here on the Reservation for our need.
    That's, I believe, all. But I'd like you to consider that. 
Also, before--I'm going to bring Tiwahe back up. But, you know, 
I'd ask that you support that and------
    Senator Hoeven. Right.
    Ms. Pearson. --make sure they hang around for a good long 
time.
    Senator Hoeven. Well, that's why I asked about it: To put 
it in the record that you think it's helpful. That's helpful, 
in terms of getting funding.
    Ms. Pearson. Okay, thank you.
    Senator Hoeven. Dr. Lindquist?
    Dr. Lindquist. My question or comment, I guess: How do we 
help you to have professional Native staff that will stay here 
for the long haul?
    I have met a few of the social workers that have come from 
wherever they've come from because sometimes they'll come here 
and have lunch in our cafeteria or cafe.
    Good people, good-hearted people, and qualified people who 
really mean well. But they've only been assigned for three 
months or four months or six months, and it's too inconsistent.
    And so, how do we get a core group of professional social 
workers--the gamut: Paralegal, forensic--to do these multi-
disciplinary tasks?
    And so, as the president of the Tribal College, I'm trying 
to help by supporting my students, but it's going to take a 
little bit of time.
    But there has to be more we can do together. And not just 
the BIA, but other agencies: The Indian Health Service, you 
know, and that.
    How do we work on this better together to have that core 
group of people here for the long haul?
    Senator Hoeven. Michael, I'll let you wrap up.
    Mr. Black. All right. I'll get it wrapped up, hot dog. You 
know, basically--you know, thank you for the comments.
    And I'm going to touch on Dr. Lindquist's comment here 
first real quick: And I do look forward to working with you and 
anybody else that would like to work with us on recruitment and 
retention.
    We have had a--you know, just an extremely difficult time 
in recruiting staff, you know, particularly up here during a 
lot of the issues that were going on.
    But I think we're beyond those now, you know, to a certain 
point to where, hopefully, we are in a better place that we're 
able to recruit and retain people here at Spirit Lake.
    But it's not just Spirit Lake where we have that issue, you 
know. Recruitment across the board for social workers right now 
has been extremely difficult.
    And so, it is something that I think is going to take a 
larger group than just the two of us--maybe pulling a lot of 
other people to look at different ways: What kind of incentives 
and ideas can we come up with that will incentivize or, you 
know, help to recruit people and entice them to come to the 
Reservations and to work with our Indian children. So I'll look 
forward to being able to do that.
    As far as the background checks and stuff go, you know, we 
look forward to, you know, looking at different ways that we 
can improve that process, you know, and not make it as onerous 
as it sometimes can be and make it as expeditious as it can be.
    So we look forward to that, as well. But thank you for 
holding this today, sir. We appreciate it.
    Senator Hoeven. Secretary Black, thank you. You've been 
responsive to me when I've contacted you.
    Before I was in this role as chairman, you've been 
responsive to me, and I appreciate that.
    And so, whatever you can do to get the people working 
throughout the BIA to have your sense of responsiveness. I 
think if they had your sense of responsiveness, that that would 
help.
    And so, let's start with a little effort along that line 
because the Chairwoman has asked for you to be responsive on a 
number of these things. Let's see how this goes.
    But I think you have that--you really have always been that 
way with me, and I want to commend you on it: You, personally.
    And then, with your leadership there--to try to create that 
sense of responsiveness throughout the BIA.
    Again, I think they could learn it from you directly. So I 
don't know if that means that you need to get out in the field 
and just talk to people about how you do it--but I think, if 
they emulate you, that will help. I mean it very sincerely.
    Mr. Black. Thank you. I appreciate that.
    Senator Hoeven. And, of course, that is an important part 
of leadership. Thank you for being here, and thank you for your 
testimony.
    Thank you for your work on the Native American Children's 
Safety Act and, of course, many, many other issues.
    Also, again, thank you, Administrator Hatch, for your 
willingness to follow up. For being here today; but then, your 
willingness to follow up on a specific like this very good Head 
Start initiative that Dr. Lindquist is working on with many 
others.
    Chairwoman, we'll try to help on some of these issues. 
You've always, as I said earlier, both in my time as governor 
and my time as a senator, you have been a steady force for the 
Reservation. And that's a very important, very good thing.
    And we'll continue to try to help, but we understand that 
there are a lot of challenges and that there aren't enough 
resources. We'll try to help with some of these areas.
    And Dr. Lindquist: Again, thank you for hosting and for 
your leadership on these issues that--of course, your primary 
job is as an educator.
    But these issues cut across so many aspects of important 
issues in terms of children's safety; quality of life; and 
really, as you said, starting to break some of the cycles of 
dependency and creating a better standard of living for 
everyone, not just for our--how did you term it? Our sacred 
young ones--but for all of us, right?
    Dr. Lindquist. Wakanheza.
    Senator Hoeven. Yes, so thank you. I should have mentioned 
that Matthew Leiphon is here with Senator Heitkamp's staff, as 
well. So Matthew, thanks for joining us. We appreciate it very 
much.
    And with that, we'll conclude the hearing. I should also 
mention that the record will be open for two weeks.
    So if there is additional testimony that anyone wants to 
submit into the record, they can do so, and it will be part of 
the permanent record. Again, thank you so much. We're 
adjourned.
    [Whereupon, at 3:15 p.m the oversight field hearing 
concluded.]

                            A P P E N D I X

    Statement of Hon. Heidi Heitkamp, U.S. Senator from North Dakota
    I'd like to thank Chairman Hoeven for holding this field hearing 
and for all of the witnesses and community members who are able to join 
today. This hearing is an opportunity for us to discuss the 
implementation of the Native American Children's Safety Act (NACSA)--a 
critically important step forward for improving the welfare of Native 
children in Spirit Lake, North Dakota, and Indian Country as a whole. I 
was proud to join Chairman Hoeven in advancing this legislation, and am 
thankful that Congress came together to pass it to enhance the 
protection of our Native youth.
    The Spirit Lake reservation in particular has faced many challenges 
with its child welfare programs and there have been instances of severe 
child abuse and neglect. No child, regardless of their background, 
should ever have to endure abuse at the hands of those who are meant to 
provide safe and loving homes. It is the job of each and every one of 
us to ensure the protection of all children.
    However, when tribal communities are challenged by inadequate 
resources and inaction by authorities to act in a child's best 
interest, protecting our most vulnerable becomes an uphill battle. It 
was the tragic state of child welfare on Spirit Lake that brought 
attention to how complex jurisdictional systems were failing tribal 
communities and the critical importance of conducting background checks 
when placing Native American children in foster-care homes. Now, we 
need to ensure the law is faithfully implemented so no child in need 
falls through the cracks.
    We know that Native communities in isolated rural or remote areas 
are among the most underserved. How can we ensure that these 
communities are equipped with qualified professionals and adequate 
resources while often coping with a lack of suitable foster homes? How 
can we ensure that children are not being left in dangerous living 
situations while agencies are conducting background checks--a process 
that can take several weeks? These are the questions I hope we can 
answer. It's encouraging that the Bureau of Indian Affairs (BIA) is 
currently in the process of developing guidance under NACSA by 
identifying best practices in social services and exploring 
opportunities for increased coordination between tribal, state, and 
federal authorities. I also applaud the initiatives that Cankdeska 
Cikana Community College has taken to increase the number of social 
workers in Indian Country, and the progress the Spirit Lake Tribe and 
the BIA have made in improving operations at the Fort Totten Agency.
    Native children suffer the second-highest rate of abuse or neglect 
of any ethnic group, with a maltreatment rate of about 50 percent 
higher than for white or Hispanic children. In North Dakota, Native 
children constitute nearly 30 percent of the state's child abuse 
victims. When children are exposed to such traumatic experiences, 
studies show it can have serious long-term impacts on health and 
neurological and behavioral development. Since my first year in office, 
I have been committed to addressing the causes and impact of childhood 
trauma, and ensuring these children are supported with proper care. 
Last year, my bill to create a Commission on Native Children was signed 
into law. The Commission will study the complex issues Native children 
face and make recommendations to make sure children living in Indian 
Country get the protections, as well as economic and educational tools 
to thrive. I am pleased that Russ McDonald, president of United Tribes 
Technical College, has been appointed to serve on this commission. He 
brings a wealth of knowledge and experience to the table which will be 
vital when the commission begins its work. And more recently, I 
reintroduced the Trauma-Informed Care for Children and Families Act (S. 
774) to comprehensively tackle the long-term impacts of trauma among 
Native children and families.
    We have a basic duty to ensure the protection of our children. This 
field hearing is an important step forward in fulfilling our 
commitments to Indian Country, and I hope we can gain some valuable 
insight on the best way to move forward on the protection of our Native 
youth, who are the future of tribal communities. I look forward to 
continuing to work together with tribal leaders and my colleagues in 
the Senate to address the needs of Indian Country.
                                 ______
                                 
 Prepared Statement of the National Indian Child Welfare Association, 
   National Congress of American Indians, National Indian Education 
Association, and National Indian Health Board (founding partners of the 
                       First Kids 1st Initiative)
Introduction
    The safety and well-being of a community's children is one of the 
highest responsibilities for any government. Tribal governments, like 
states, have a special obligation to ensure that their community's 
children are safe from harm like child abuse and neglect. The tools for 
helping meet this responsibility include establishment of clear 
policies, adequately resourced child protection infrastructure and 
services, well-trained workforce, well-coordinated and effective 
partnerships with federal and state partners, and easy and reliable 
access to national criminal databases and child abuse registries. We 
applaud the Chairman and Vice-Chairman for holding this oversight 
hearing and providing our organizations with an opportunity to share 
our experiences, thoughts, and recommendations regarding the 
implementation of the Native American Children's Safety Act and overall 
efforts to support the safety and well-being of Native children. Our 
testimony will focus on key challenges to successfully implementing the 
Native Children's Safety Act, barriers to creating effective child 
protection programming in Indian Country, and recommendations for 
addressing these challenges.
    About First Kids 1st: The First Kids 1st Initiative is a national 
collaborative effort comprised of leading Native American 
organizations, allies, and partners from all backgrounds, focused on 
changing national, tribal, and state policy to create conditions in 
which American Indian and Alaska Native children can thrive. We are 
working to cultivate and nurture strategies and policies that build and 
strengthen equitable and local supports for vulnerable Native children 
in their communities. The Founding Partners formally joined together to 
support the healthy development of Native youth by coordinating efforts 
to transform the systems that have the greatest impact on Native youth 
and families-systems of health, child welfare, education, and 
governance. Learn more at: www.FirstKids1st.org
A Brief History of Criminal Background Checks for Tribally Licensed 
        Foster Homes and Implications for Implementation of the Native 
        American Children's Safety Act
    Indian Child Protection and Family Violence Prevention Act (1988-
1997). Following widespread reports that Native children were being 
physically and sexually abused in Bureau of Indian Affairs (BIA) run 
boarding schools in the 1980's Chairman McCain and Vice-Chairman Inouye 
of the Senate Committee on Indian Affairs held several hearings to 
further investigate and document the problem and solicit suggestions on 
how to prevent further exploitation of Native children. What followed 
was legislation that was enacted into law in 1990 entitled the Indian 
Child Protection and Family Violence Prevention Act (P.L. 101-630). The 
law mandated greater coordination between law enforcement and child 
protection agencies serving Native children on tribal lands, improved 
reporting standards before and during investigations of alleged child 
abuse and neglect involving Native children on tribal lands, required 
criminal background checks for the Bureau of Indian Affairs (BIA), 
Indian Health Services (IHS), and tribal employees with contact or 
control over Native children, and grant programs to address child abuse 
and domestic violence prevention and treatment for victims, including 
the establishment of regional child abuse resource centers for Indian 
Country. The grant programs were, and still are today, the only tribal 
specific prevention and treatment program funds for Native children who 
are at risk of being abused or have been abused.
    The criminal background check requirements under the law were later 
interpreted by the BIA to also apply to licensing of tribal foster care 
homes. At the time, criminal background checks were primarily done by 
name (now referred to as Code X criminal background checks) and 
fingerprint cards. Electronic submission of digitized fingerprint scans 
became more common after 1997 when the Adoption and Safe Families Act 
(P.L. 105-89) established first ever federal requirements for criminal 
background checks for prospective foster families licensed by state 
agencies. Later in 2006 the Adam Walsh Child Protection and Safety Act 
added additional requirements for states and tribes regarding criminal 
background checks and checking of child abuse registries for 
prospective foster families. Training for tribes on how to conduct the 
criminal background checks required under the Indian Child Protection 
and Family Violence Prevention Act was slow in coming and did not 
adequately address issues of differences in tribal infrastructure and 
resources for mandated activities, opportunity to work with state 
partners, and access to national criminal databases like those that the 
Federal Bureau of Investigation (FBI) operate. A few years after the 
law went into effect the BIA created a process for tribes to submit 
name-based criminal background checks, but the process was slow leading 
to delays of anywhere from one to six months in getting the check 
completed in some cases. Regulations and agency guidance was also slow 
to be developed and did not address key issues such as access to 
national criminal databases adding to an already challenging 
environment for implementation. The result was low awareness within 
Indian Country of the law's new requirements, widespread frustration at 
the difficulty in meeting the law's requirements with respect to 
criminal background checks, and a lack of uniformity in interpretation 
and implementation.
    Tribes Working with States to Conduct Criminal Background Checks 
(1997-2013). Following the passage of the Adoption and Safe Families 
Act in 1997, increasing numbers of tribes began to look to their state 
partners to help them perform the background checks required under the 
Indian Child Protection and Family Violence Prevention Act, especially 
those tribes that had limited child welfare and law enforcement 
infrastructure. This tribal-state collaboration was also boosted by 
increasing numbers of tribes (over 120) that developed agreements with 
their states to operate the Title IV-E Foster Care and Adoption 
Assistance program, which contained the Adoption and Safe Families Act 
criminal background check requirements for states. While the state 
assistance was welcomed by tribes in over 14 states, there were some 
downsides to the partnership. Tribes found they had little control over 
what violations the state criminal background checks looked at and many 
states had gone far beyond the federal minimum requirements for these 
checks. In several states, tribes were only able to get a finding of 
pass or fail on the background checks that the state performed, which 
did little to empower tribes to work with prospective foster families 
to see if they would have passed a background check that was matched to 
the requirements of federal law or pursue expungement of a person's 
record when it seemed appropriate. Nonetheless, more and more tribes 
relied upon their states to provide this critical service in an effort 
to ensure safety of children placed in tribal foster care homes.
    Changes in State's Ability to Assist Tribes (2014 to the present). 
In 2014, nearly 13 years after many states and tribes developed 
agreements on conducting criminal background checks for prospective 
foster families, Washington State and Oregon discovered that FBI 
Criminal Justice Information Services had concerns about whether these 
arrangements met federal mandates and security requirements for the 
sharing of criminal background information with tribes by states. Both 
Washington and Oregon felt they needed to cease offering tribes the 
option of doing criminal background checks for over a year while trying 
to sort out how to meet federal requirements. During this intervening 
process, it became obvious that the federal policy landscape for tribes 
to gain access to state criminal background check processes was more 
complicated than many had believed earlier. While the Indian Child 
Protection and Family Violence Prevention Act and Adam Walsh Child 
Protection and Safety Act specifically identified tribes as being 
authorized to receive criminal background check information from the 
FBI regarding foster home criminal background checks, other federal law 
required states to enact legislation listing who specifically was 
eligible to receive this information before the FBI would make criminal 
records available to state and local governments specifically (see 
Title II, Section 201 of Public Law 92-544, 86 Stat. from October 25, 
1972). This enabling legislation exists in only a handful of states 
where tribes are licensing foster homes and relying on the state to 
assist them in their criminal background checks.
    Federal Responses to Tribal Advocacy to Improve Access to National 
Crime Databases (2015 to the present). In 2015, after concerted efforts 
by tribes, NICWA, and NCAI to work with FBI Criminal Justice 
Information Services and BIA, two new opportunities to address criminal 
background checks barriers for tribes licensing foster homes were 
developed. The first was access to Code X name-based criminal 
background checks. These are typically used when placing a child in an 
emergency foster placement late at night or during the weekend when 
there is not time to do a more comprehensive criminal background check 
with fingerprints. The BIA provides this access through their Office of 
Justice Services. The second is the Tribal Access Program (TAP). The 
TAP program is a demonstration project sponsored by the Department of 
Justice to provide tribes with a more effective access to FBI national 
crime information systems for both civil and criminal purposes. In the 
TAP program the Department of Justice acts as the conduit for select 
tribes who have been approved to participate in the TAP program. 
Currently, 10 tribes have been selected to participate in the TAP 
program. The demonstration project is well suited for tribes that have 
resources to develop and maintain the necessary infrastructure to meet 
federal security requirements connected to the access of FBI operated 
national crime data information databases, but is not a good fit for 
smaller, less well resourced tribes that need a less costly and more 
administratively feasible option. While both of these programs are 
helpful and improve tribal access to national crime databases, they do 
not provide uniform and effective access for all tribes that are 
licensing foster families on tribal lands.
    Overall, it is estimated that there are over 300 tribes that 
license or approve their own foster care homes on tribal lands. These 
homes are not only helpful to tribal children living on tribal lands, 
but also to states that often need to borrow these homes to place 
Native children that live off tribal lands to ensure that Native 
children remain connected to their extended families and tribal 
culture. Our analysis and experience tells us that with reduced access 
to states that are willing to do criminal background checks for tribes 
and are authorized under federal law to share this information, 
combined with limited capacity for many tribes to develop direct access 
to the FBI's national crime databases, implementation of the Native 
Children's Safety Act may suffer from some of the same ailments that 
has plagued implementation of the Indian Child Protection and Family 
Violence Prevention Act since its enactment in 1990.
Recommendations
        1)  Harmonize current federal law requirements that impact 
        tribal access to national crime databases so that all tribes 
        that license their own foster care homes can have easy and 
        effective access to submit, process, and receive criminal 
        background check information related to the placement of Native 
        children in tribal foster care from the FBI national crime 
        databases.
        2)  Amend federal law to help make it easier for states to 
        provide criminal background check services to tribes that are 
        licensing tribal foster homes. This access should allow tribes 
        to not only submit requests to states to perform this service, 
        but also allow tribes access to all criminal violations 
        findings resulting from the background check.
        3)  In coordination with tribes, work with BIA administrative 
        officials to create a comprehensive training and technical 
        assistance package to assist tribes in their knowledge and 
        skills development to be able to successfully implement the 
        Native Children's Safety Act requirements. The training and 
        technical assistance should be provided through regular 
        training sessions held throughout Indian Country and also by 
        electronic resources, such as webinars and Internet-based 
        resources.
Child Protection Programming in Indian Country
    The need for effective child protection programs in tribal 
communities is significant, especially given high rates of at risk 
indicators that many tribal communities experience. Elevated levels of 
poverty, alcohol and substance abuse, and domestic violence can 
increase the risk for child abuse and neglect, especially in 
geographically isolated areas where often fewer services are available 
and many tribal communities reside. Access to state or county services 
in these rural areas are also less accessible and often are not well-
equipped to effectively address the unique needs of tribal families and 
communities. Current data indicates that while Native children 
experience child abuse and neglect at an elevated rate, child neglect 
is by far the most commonly reported form of child maltreatment. State 
reported data on child maltreatment where Native children are involved 
indicates Native children are victims of child maltreatment at a rate 
of 13.8 per 1,000, the second highest rate for any racial or ethnic 
group, compared to the national rate of 9.2 children per 1,000 
(Department of Health and Human Services, 2015).
    All tribes provide some level of child abuse prevention and child 
protection services. These services may often be informal and include 
the use of extended family members or community elders, but they are an 
important partner to formal tribal child welfare program services. We 
sometimes describe how this natural helping system works as the more 
eyes and ears that you have in the community watching out for children 
the less likely you will have children experience maltreatment. Parents 
learn the expectations of the community in their role for helping keep 
children safe and benefit from those around them that support and guide 
them. This natural helping system came under attack several generations 
ago as Native children were forcibly separated from their families and 
tribes during the boarding school era and on into the 1950s through the 
1970s with the Indian Adoption Project and Relocation era. These 
federal policies had disastrous effects upon generations of Native 
families destabilizing and disrupting the natural helping systems that 
once formed the core of child protection efforts in tribal communities.
    Today, as tribes work to decolonize their communities and programs 
there is a resurgence of interest and movement to reinvigorate the 
natural helping systems within tribes and design child protection 
systems that are based upon community values and tribal culture. The 
success of these more contemporary efforts are seen in a number of 
tribes that have redesigned their programs to place less emphasis on 
doing primarily crisis services such as foster care and more to 
identify families at risk of abusing or neglecting their child early on 
before a full blown crisis ensues that requires removing the child and 
causing the family and child unnecessary trauma. In these tribal 
communities, we see outcomes that are beyond anything seen in other 
public child welfare systems. Foster care rates are reduced by as much 
as 70 percent and families are able to safely keep their children at 
home and avoid the revolving door that plagues many foster care systems 
in this country. These tribal models rely heavily on surrounding the 
family early on with support and having social workers that are 
appropriately trained and dedicated to intensive family engagement that 
works with the family in their unique cultural and social environment. 
All available supports, whether formal or informal, are actively 
utilized to help families succeed and keep children safe.
    The ability to redesign a program from the inside using the 
community as your guide is open to all tribes, but the capacity to 
continue operating a program like the ones mentioned above happens 
because tribes have resources, ongoing sources of funding that can 
support this model of child safety. The examples in Indian Country are 
still promising and all have in common available tribal revenues that 
exceed most tribes. However, with additional federal support, like 
grant programs authorized under the Indian Child Protection and Family 
Violence Prevention Act, every tribe could potentially develop and 
operate this type of enhanced child protection programming. The child 
abuse prevention and treatment grant programs authorized under the 
Indian Child Protection and Family Violence Prevention Act are the only 
federal dedicated child abuse prevention and victim treatment funding 
for tribal governments, but have only been appropriated $5 million 
since 1990 when the law was enacted. Compare this to the $43 million of 
authorizations in the law for these critical grant programs which have 
never been funded. This is support that could help tribes develop much 
needed child abuse prevention and treatment services in their 
community, tribal programs that are similar to those mentioned earlier, 
and result in less trauma and uncertainty for tribal children and 
families. While the reforms of the Native American Children's Safety 
Act is an important move forward in ensuring child safety once they 
have been placed in foster care, appropriating grant funding under the 
Indian Child Protection and Family Violence Prevention Act is an 
opportunity to reduce the need to remove many Native children from 
their families in the first place.
Recommendations
        1)  Work with Congressional appropriations committees to 
        support FY 2018 appropriations for the Indian Child Protection 
        and Family Violence Prevention Act grant programs for tribes 
        with special attention given to fully funding the Indian Child 
        Abuse Treatment grant program ($10 million) and Indian Child 
        Protection and Family Violence Prevention grant program ($30 
        million).
Conclusion
    The First Kids 1st partner organizations greatly appreciate the 
efforts of Chairman Hoeven and Vice-Chairman Udall to hold this field 
hearing on efforts to protect Native children. Our organizations are 
involved in several different areas of work, but our common bond is our 
dedication to the well-being of Native children. No child can succeed 
in school or feel secure in their home or community if there aren't 
appropriate supports and protections in place to safeguard their well-
being. The Native American Children's Safety Act helps by streamlining 
a number of the federal laws guiding criminal background checks for 
foster families licensed by tribes and improving safety for children by 
incorporating what is widely deemed as good practice in this process. 
The important next steps are to detangle and clarify the web of laws 
that govern tribal access to the national criminal databases 
administered by the FBI's Criminal Justice Information Center so every 
tribe can have easy and reliable access regardless of size, resources, 
and whether they want to work with a state or gain access directly. 
Furthermore, comprehensive and well-coordinated efforts to educate and 
train tribes about the requirements of the law are needed immediately. 
Lastly, we are seeing the great strides that tribes are making in 
increasing safety for their children and reducing the trauma for 
children and families that comes from over use of foster care. 
Investing in tribal child protection services and community-based 
resources with funding from the Indian Child Protection and Family 
Violence Prevention Act grant programs is key to increased child safety 
in Indian Country. As we are seeing in a number of successful tribal 
communities, there is no substitute for the kind of positive outcomes 
that can be found in tribal communities that have designed their child 
protection systems with culturally-based services that incorporate 
their unique community resources and approaches. This work is so 
important to our community's future and we greatly appreciate the 
opportunity to share our experience and knowledge in this area. As the 
Senate Committee on Indian Affairs continues their efforts to advance 
the well-being of our children and families we look forward to working 
closely with you.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Michael S. Black
    Question. As detailed in a December 2016 report published by the 
Montana Department of Justice Office of the Child and Family Ombudsman, 
tragically, 14 children died across Montana after reports of abuse were 
made to the Montana Department of Public Health and Human Services 
Child and Family Services Division. Of these 14 children, four were 
American Indian. Clearly, there is a strong need for better protections 
and care for Native American children in the foster care system. While 
the Native American Children's Safety Act is key to ensuring that 
tribal social services agencies can make informed decisions about child 
foster placements, what additional information, beyond the data points 
outlined in that Act, would benefit tribal social services agencies to 
have access to or be required to collect to enable tribes to better 
safeguard children in the foster care system?
    Answer. Congress enacted the Native American Children's Safety Act 
(NACSA) on June 3, 2016. NASCA requires the Department of the Interior 
(DOI), Bureau of Indian Affairs (BIA) to issue guidance to Tribes on 
appropriate standards for foster-care placements by June 2018. The 
Assistant Secretary--Indian Affairs and B1A have partnered with the 
Department of Justice (DOJ), Federal Bureau of Investigation (FBI), and 
the Department of Health and Human Services, Administration for 
Children and Families to establish guidelines for Tribes to conduct: 
(1) a criminal records check, including a fingerprint-based check of 
national crime databases of all adults in any tribally ordered foster-
care home; and (2) a check of Tribal and state abuse and neglect 
registries (this to include a check of all states where the individual 
has lived in the past 5 years) before a Tribe places an Indian child in 
foster care.
    DOI's guidance will provide assurance, safeguards, and controls in 
the protection of Indian children when an out-of-home foster placement 
is necessary by the Tribe. To create a consistent and standard process, 
the AS-IA plan also includes offering training to Tribes on NACSA after 
finalization of the guidance.
    What NACSA does not consider are two issues: access to information 
needed to conduct background checks, and resources needed to conduct 
background checks.
    Many Tribes lack the resources to hire the staff needed to dedicate 
time to do the background checks, perform ongoing case management 
services, work on adjudications, and conduct the monthly site visits 
required by NACSA. Moreover, training on the various data systems used 
for background checks is needed. That is, Tribal social service 
programs need trained staff that is solely dedicated to working on the 
background checks, adjudicating and managing these cases, and 
conducting the monthly site visits required by NACSA.
    Additionally, according to the Department of Justice, many Tribes 
have difficulty accessing the fingerprint-based criminal records check 
system for a variety of reasons. While both the Violence Against Women 
Act (VAWA) 2005 and Tribal Law and Order Act (TLOA) of 2010 provide 
authorization for tribal law enforcement agencies to access national 
crime information databases, tribal participation in national criminal 
justice information sharing depends upon state regulations, statutes, 
and policies in which tribal land is located. Tribes may face barriers 
to accessing and entering information into national crime information 
databases via state networks, so DOJ began the Tribal Access Program in 
2015, which expands access to all national crime information databases 
to all authorized tribal civil and criminal justice agencies for tribes 
selected to participate in the program. Currently, 47 tribes either 
have or are in the process of obtaining a kiosk that provides access to 
the criminal records system through DOJ's Tribal Access Program (TAP). 
Additionally, although there are for-fee private organizations that 
provide this service, most of these services are prohibitively 
expensive.
    Another barrier with regard to abuse and neglect records is that 
each state maintains its own closed registry of child abuse 
investigation records. That is, there is no one search engine that is 
capable of examining abuse and neglect records across multiple states. 
There is also no national child abuse registry for Tribes. In Indian 
country, many families have ties to other tribal communities. So, while 
Tribes can conduct background checks using their own court, law 
enforcement, or social service systems, they cannot search other tribal 
communities even though there may be relevant records there. This is 
challenging if a Tribe takes a hardline stance on confidentiality 
because NACSA does not require a search of other tribal child abuse 
registries. NACSA only requires Tribes to check state registries and 
its own tribal registries. Thus, the Bureau of Indian Affairs (BIA) 
plans to assist Indian Tribes in complying with NACSA by providing 
information on how to conduct background checks. The BIA has prepared a 
Draft NACSA Guidance document, entitled Background Checks For Foster 
Care Placements Under NACSA, for Tribes' review and comment. The Draft 
NACSA Guidance is also available at the following website: https://
www.bia.gov/as-ia/raca/regulations-and-other-documents-in-development
    During February 2018, the Office of the Assistant Secretary--Indian 
Affairs will be hosting Tribal consultation sessions to hear Tribes' 
input on this Draft NACSA Guidance.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                              Nikki Hatch
    Question. To ensure a child's foster care placement remains safe 
over time, what would you envision being key components of the 
recertification process required in the Native American Children's 
Safety Act?
    Answer. The Native American Children's Safety Act, Public Law 
(P.L.) 114-165 directs the Department of the Interior (DOI) to issue 
guidance for Indian tribes to establish procedures to recertify homes 
or institutions in which foster care placements are made. The 
Department of Health and Human Services, Administration for Children 
and Families (ACF) is serving on a DOI working group for implementing 
P.L. 114-165. To begin these efforts, ACF is providing DOI assistance 
by helping them understand the similarities and differences in the 
requirements for foster homes and institutions under the title IV-E 
program and the provisions in this P.L. 114-165. For example:

  <bullet> P.L. 114-165 requires that foster family homes and child 
        care institutions are recertified periodically, including 
        safety standards and background checks. Many title IV-E 
        agencies voluntarily do so even though not required under title 
        IV-E.

  <bullet> Both P.L. 114-165 and title IV-E require child abuse and 
        neglect registry checks and fingerprint-based checks of the 
        National Crime Information Database (NCID) for prospective 
        foster family homes and prohibit an individual from being 
        approved if the individual has committed certain felonies. 
        However, unlike title IV-E, P.L. 114-165 requires these 
        criminal background checks for all individuals over age 18 
        residing in a foster family home or employed at an institution. 
        \1\
---------------------------------------------------------------------------
    \1\ Note that title IV-B of the Social Security Act requires state 
agencies to ensure that all programs receiving IV-B funds require 
criminal background checks of all adults living in a prospective foster 
family home.

  <bullet> P.L. 114-165 exempts emergency foster care placements from 
        the requirement that adult members of a foster family home and 
        employees of institutions complete a fingerprint-based check of 
        the National Crime Information Database (NCID) and that the 
        tribe check to see if these individuals are on a state child 
        abuse and neglect registry. Title IV-E does not allow agencies 
        to claim IV-E foster care maintenance funds until the foster 
        home or institution is licensed, which requires completion of 
---------------------------------------------------------------------------
        all applicable background checks.

  <bullet> P.L. 114-165 prohibits a foster care placement if an adult 
        individual who resides in a foster family home or an employee 
        of an institution is listed on a child abuse and neglect 
        registry.

    --Title IV-E requires agencies to check or request a check of a 
        child abuse and neglect registry for prospective foster 
        families and adult members of the household, but allows the 
        agency discretion in how to consider the results of the check 
        and whether to approve the family.

    --Title IV-E does not require an NCID or child abuse and neglect 
        registry check for every individual that is employed at a child 
        care institution; rather it provides flexibility for the IV-E 
        agency to have a process to provide for safety considerations 
        of staff employed in institutions, which are often criminal 
        background checks of employees in institutions.

                                  <all>
</pre></body></html>
